<html>
<title> - TEN YEARS AFTER 9/11: ASSESSING AIRPORT SECURITY AND PREVENTING A FUTURE TERRORIST ATTACK</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





   TEN YEARS AFTER 9/11: ASSESSING AIRPORT SECURITY AND PREVENTING A 
                                FUTURE TERRORIST ATTACK

=======================================================================

                             FIELD HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT,
                     INVESTIGATIONS, AND MANAGEMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 16, 2011

                               __________

                           Serial No. 112-45

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
 73-356 PDF              WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop SSOP, Washington, DC 
20402-0001






                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, INVESTIGATIONS, AND MANAGEMENT

                   Michael T. McCaul, Texas, Chairman
Gus M. Bilirakis, Florida            William R. Keating, Massachusetts
Billy Long, Missouri, Vice Chair     Yvette D. Clarke, New York
Jeff Duncan, South Carolina          Danny K. Davis, Illinois
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                  Dr. R. Nick Palarino, Staff Director
                   Diana Bergwin, Subcommittee Clerk
              Tamla Scott, Minority Subcommittee Director










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Oversight, Investigations, and Management:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable William R. Keating, a Representative in Congress 
  From the State of Massachusetts, and Ranking Member, 
  Subcommittee on Oversight, Investigations, and Management......     4

                               Witnesses

Mr. Stephen M. Lord, Director, Homeland Security and Justice 
  Issues, Government Accountability Office:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Chris McLaughlin, Assistant Administrator for Security 
  Operations, Transportation Security Administration, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    17
  Joint Prepared Statement.......................................    18
Admiral George Naccara (Ret.), Federal Security Director, 
  Transportation Security Administration, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    21
  Joint Prepared Statement.......................................    18
Mr. Edward C. Freni, Director of Aviation, Massachusetts Port 
  Authority:
  Oral Statement.................................................    22
  Prepared Statement.............................................    27
Major Michael P. Concannon, Major, State Police Troop F, Boston 
  Logan International Airport:
  Oral Statement.................................................    32
  Prepared Statement.............................................    35

 
   TEN YEARS AFTER 9/11: ASSESSING AIRPORT SECURITY AND PREVENTING A 
                        FUTURE TERRORIST ATTACK

                              ----------                              


                       Friday, September 16, 2011

             U.S. House of Representatives,
    Subcommittee on Oversight, Investigations, and 
                                        Management,
                            Committee on Homeland Security,
                                                        Boston, MA.
    The subcommittee met, pursuant to call, at 9:37 a.m., at 
the General Edward Lawrence Logan International Airport, 
Terminal E, Departure Level, Boston, Massachusetts, Hon. 
Michael T. McCaul [Chairman of the subcommittee] presiding.
    Present: Representatives McCaul and Keating.
    Mr. McCaul. Well, good morning to everybody here. The 
Committee on Homeland Security will come to order.
    Let me first say thank you to the Massachusetts Port 
Authority and everybody involved with putting this hearing 
together. It's 10 years after 9/11. To be sitting in the very 
airport where the hijackers took off that fateful day is really 
something. I think it really brings a moment here as we reflect 
back 10 years later on aviation security.
    Let me thank the Ranking Member for being such a great 
host. The Boston-Austin connection is still alive and well. I 
had the pleasure to bring him down to Texas, and it was about 
110 degrees, so I really appreciate the 60-degree weather and 
sunny conditions. I think Mr. Keating is probably the envy of 
almost every Member in the House as he represents Martha's 
Vineyard, Nantucket, and Cape Cod. So I'm proud to represent 
Austin to Houston. Boston is not exactly a stranger to me. I 
did attend the Kennedy School at Harvard University many years 
ago.
    So with that, we'll begin the hearing. The purpose of this 
hearing is to examine security at the Logan International 
Airport and aviation security throughout the United States 10 
years after 9/11. This is an official House hearing, and so all 
of the rules of the House do apply to this hearing.
    I now recognize myself for an opening statement. I know 
that sounds kind of strange, but that's how we talk in 
Washington. We have to recognize ourself to speak.
    The morning of September 11, 2001, I remember watching the 
television with one of my daughters, and the first airplane had 
hit the Twin Tower and everybody thought it was an accident. 
Then the second plane hit, and she asked me, ``Daddy, why did 
that plane fly into the building?'' It was when that second 
plane flew, at that point, we knew that this was not an 
accident. We knew that America was under attack.
    There were a total of almost 3,000 deaths that day. It is 
estimated that the U.S. stock market lost $1.4 trillion in 
value. The United States was at war. We've lost thousands of 
men and women in the battle against terrorism, and we continue 
to fight the terrorists and protect our homeland.
    The terrorists began this war by using our airports as 
launching pads. Over a period of 10 years, we've spent billions 
of dollars to mitigate such a threat. However, the 9/11 
Commission's 10th anniversary report card concludes, ``We are 
still vulnerable to aviation security threats.'' Specifically, 
the report states, ``We need to improve screening at airport 
checkpoints using biometrics and standardized identification 
documents to make it more difficult to circumvent security.''
    In addition, the attempted terrorist bombing of Northwest 
flight 253 on approach to Detroit on Christmas day 2009 
provides a vivid reminder that commercial aviation remains an 
attractive terrorist target and underscores the need for 
effective airport security. Our major airports now have 
multiple layers of security screening. Today's hearing will 
examine two of those layers, airport perimeter security as well 
as new security measures being tested here at Logan 
International Airport.
    This airport has led the Nation in new techniques and 
innovative methods to prevent another 9/11 attack. Methods used 
by airports to control access vary because of differences in 
design and layout. But all access controls must meet minimum 
performance standards established by the TSA. TSA requires 
airports to control access using methods such as pedestrian and 
vehicle gates, keypad access codes with personal identification 
numbers, magnetic stripe cards and readers, turnstiles, locks 
and keys, and security personnel.
    The Government Accountability Office's 2009 report 
concludes there have been thousands of security breaches at 
airports across this country.
    Additionally, it's been reported a young man breached 
perimeter security at the Charlotte Douglas International 
Airport and hid in the wheel well of a passenger plane. His 
body was found along Boston's airport's flight path. Department 
of Homeland Security Secretary Napolitano said, ``Clearly, if 
somebody, a 16-year-old, is able to circumvent standards and 
requirements and get into a wheel well of a plane, there has 
been a breakdown.'' Although some of these breaches are 
accidental, some may represent dry runs by terrorists.
    The GAO examined airport perimeter security and concluded 
that the TSA should develop a comprehensive risk assessment of 
airport security and milestones for its completion and 
evaluation plan for any future airport security pilot programs 
and a National strategy for airport security that includes key 
characteristics such as goals and priorities.
    Not only is perimeter security a special concern, but 
passenger screening is essential if we are to prevent another 
9/11. TSA employees perform approximately 1.8 million screens 
per day, 2 million on holidays and have screened more than 6 
billion travelers since September 2001. The methodology has not 
always been perfect, and the sheer magnitude of this effort is 
certain to garner critics about the procedures.
    TSA is attempting to improve security by testing a new 
program designed to identify potentially dangerous passengers 
before they board aircraft. The Screening Passengers by 
Observation Technique, or SPOT, originated right here at Boston 
Logan Airport in 2003. SPOT is designed to utilize nonintrusive 
behavior observation and analysis to identify high-risk 
passengers who may be a threat.
    The Behavior Detection Program, a modification of SPOT, 
will have specially-trained agents question passengers, engage 
their reaction before they board the aircraft. Based on 
physical clues or answers to questions, these officers should 
be able to detect suspicious behavior. The analysis will help 
determine if a passenger should go through additional 
screening. The program is based, in part, on the Israeli model 
of passenger screening. The GAO has examined this program and 
concludes it should be fully validated before used in airports 
throughout the United States.
    I hope I never have to answer a question for my daughter 
again about airplanes flying into buildings because of a 
terrorist attack. We are here today to make sure security is in 
place to prevent such questions and another tragedy.
    Finally, I would like to, again, thank the Massachusetts 
Port Authority for hosting this hearing. You would never know 
that we're in an airport terminal here today. You've just done 
a fantastic job putting this together. I want to thank all of 
the witnesses for being here and everybody attending this 
hearing. Thank you for your interest and your participation.
    [The statement of Mr. McCaul follows:]
            Prepared Statement of Chairman Michael T. McCaul
    The Committee on Homeland Security Subcommittee on Oversight, 
Investigations, and Management will come to order. The purpose of this 
hearing is to examine security at the General Edward Lawrence Logan 
International Airport.
    I appreciate the effort taken on behalf of all of those involved to 
have this important field hearing. This is an official Congressional 
hearing, as opposed to a town hall meeting, and as such, we must abide 
by certain rules of the Committee on Homeland Security and of the House 
of Representatives. I kindly wish to remind our guests today that 
demonstrations from the audience, including applause and verbal 
outbursts, as well as the use of signs or placards, are a violation of 
the Rules of the House of Representatives. It is important that we 
respect the decorum and the rules of this committee. I have also been 
requested to state that photography and cameras are limited to 
accredited press only.
    I now recognize myself for an opening statement. The morning of 
September 11, 2001, I remember watching television with one of my 
daughters and she asked ``why did that plane fly into the building?'' 
It was the second plane flying into the World Trade Center and at that 
point we knew it was no accident. America was under attack. There were 
a total of 2,996 deaths that day. It is estimated U.S. stocks lost $1.4 
trillion in value. The United States went to war and we have lost 
thousands of men and women in the battle against terrorism. We continue 
to fight the terrorists and protect our homeland. The terrorists began 
this war by using our airports as launch pads. Over a period of 10 
years we have spent billions of dollars to mitigate such a threat. 
However, the 9/11 Commission's tenth anniversary report card concludes 
``we are still vulnerable to aviation security threats.'' Specifically 
the report states we need to improve screening at airport checkpoints 
using biometrics and standardize identification documents to make it 
more difficult to circumvent security.
    Additionally the attempted terrorist bombing of Northwest flight 
253 on approach to Detroit on Christmas day 2009, provided a vivid 
reminder commercial aviation remains an attractive terrorist target and 
underscores the need for effective airport security. Our major airports 
now have multiple layers of security.
    Today's hearing will examine two of those layers; airport perimeter 
security, as well as new security measures being tested here at Logan 
International Airport in Boston. This airport has led the Nation in new 
techniques and innovative methods to prevent another 9/11 attack.
    Methods used by airports to control access vary because of 
differences in the design and layout, but all access controls must meet 
minimum performance standards established by The Transportation 
Security Administration.
    TSA requires airports to control access using methods such as 
pedestrian and vehicle gates, keypad access codes with personal 
identification numbers, magnetic stripe cards and readers, turnstiles, 
locks and keys, and security personnel. The Government Accountability 
Office 2009 report concludes there have been thousands of security 
breaches at airports around the country. Additionally, it has been 
reported a young man breached perimeter security at Charlotte/Douglas 
International Airport and hid in the wheel well of a passenger plane. 
His body was found along Boston airport's flight path. Department of 
Homeland Security Secretary Napolitano said, ``Clearly if somebody, a 
16-year-old, is able to circumvent standards and requirements and get 
into the wheel well of a plane, there has been a breakdown.'' Although 
some of these breaches are accidental, some may represent dry runs by 
terrorists.
    The GAO examined airport perimeter security and concluded that TSA 
should develop a comprehensive risk assessment of airport security, and 
milestones for its completion; an evaluation plan for any future 
airport security pilot programs; and a National strategy for airport 
security that includes key characteristics, such as goals and 
priorities. Not only is perimeter security of special concern, but 
passenger screening is essential if we are to prevent another 9/11. TSA 
employees perform approximately 1.8 million screens a day, 2 million on 
holidays and have screened more than 6 billion travelers since 
September 2001. The methodology has not always been perfect. The sheer 
magnitude of this effort is certain to garner critics about the 
procedures. TSA is attempting to improve security by testing a new 
program designed to identify potentially dangerous passengers before 
they board aircraft. The Screening Passengers by Observation Technique 
(SPOT) originated at Boston Logan airport in 2003. SPOT is designed to 
utilize non-intrusive behavior observation and analysis to identify 
high-risk passengers who may be a threat.
    The Behavior Detection Program, a modification of SPOT, will have 
specially-trained agents question passengers and gauge their reaction 
before they board aircraft. Based on physical clues or answers to 
questions, these officers should be able to detect suspicious behavior. 
The analysis will help determine if a passenger should go through 
additional screening.
    The program is based in part on the Israeli model of passenger 
screening. The GAO has examined this program and concludes it should be 
fully validated before it is used in airports throughout the United 
States.
    I hope I never have to answer a question from my daughter again 
about planes flying into a building because of a terrorist attack. We 
are here today to make sure security is in place to prevent such 
questions and another tragedy.
    One final note; I would like to thank the Massachusetts Port 
Authority for hosting this hearing, all the witnesses present and 
especially my friend and colleague, Congressman Bill Keating for his 
insights about aviation security. With that I recognize the Ranking 
Member of the subcommittee, the gentleman from Massachusetts, Mr. 
Keating, for 5 minutes for the purpose of making an opening statement.

    Mr. McCaul. With that, I would like to recognize my good 
friend and colleague, the Ranking Member of the committee, Bill 
Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Now, last Sunday was a somber reminder of our lives, all of 
our lives, and the way that the tranquility that we had prior 
to that had been lost and lost forever, frankly. In the midst 
of our remembrance, there is still a great deal of struggle to 
comprehend exactly what led to the tragedy and how it could 
have been prevented.
    The fact of the matter is that, on September 11, 2001, our 
aviation security suffered a profound breach. This breach 
resulted in over 3,000 lives lost and a new understanding of 
what it means to be safe. We are living in a world where the 
reality has changed, and we know now that harm can strike at 
any moment on our own soil.
    Thereafter, many things have occurred. I think it's fitting 
and appropriate that the Committee on Homeland Security is here 
today at Logan Airport to examine the strides we've made in our 
aviation security since the terrible day of 9/11 and the steps 
we need to continue to take to ensure that we remain ahead of 
those who desire to attack us.
    I'd like to thank the MassPort Authority for their 
hospitality and their work in preparation for this hearing. I 
want to welcome two Michael McCauls. First, if I could, young 
Michael McCaul is here, 10 years old, and we welcome him to 
Boston. I also want to welcome Chairman Michael McCaul to 
Massachusetts. I'm happy to say that you're looking at two 
people who generally support the spirit of bipartisanship. 
Chairman McCaul's support was instrumental in conducting this 
hearing, and I thank him for that.
    Last month, I had the pleasure to travel to Houston to 
conduct a field hearing in Chairman McCaul's home State where 
we examined security procedures at the Port of Houston. Mr. 
Chairman, just as the lessons we learned at that hearing at the 
Port of Houston allowed me to better understand and address the 
issues of concern at the Port of Boston, I hope the procedures 
and pilot programs we'll examine here today at Logan Airport 
can one day be applied to airports Nation-wide.
    After all, Logan has become the gold standard for airports 
across the United States. The cooperation, security protocol, 
and technology employed here are impressive in every respect. 
Yet Logan's path to success originated in a place of sorrow 
when, a decade ago, terrorists chose this airport as one of 
their departure points in their quest to commit the most 
heinous terrorist attack to occur on U.S. soil. The devastating 
events of that day forever changed our Nation, and our security 
procedures have to adapt and change as well.
    On September 12, 2001, the leadership at Logan was faced 
with a choice, to remain frozen in time or to move forward and 
establish the reputation as one of the safest and most secure 
airports in the United States of America. To the benefit of all 
those who travel in and out of Logan, like I do each week, I'm 
pleased to say, they chose the latter.
    To date, Logan is the only airport in the country that 
conducts a daily security briefing that includes Federal, 
State, local law enforcement agencies, TSA, airport personnel, 
airlines, and MassPort staff. I had the opportunity to observe 
one of those briefings last June, and the high level of 
communication and cooperation that occurs here is truly 
outstanding.
    This type of intelligence sharing should be routine. Yet as 
we recently saw in the 9/11 Commission's latest report, it's 
one of the areas where our homeland security continues to lack 
efforts. I hope we learn today how you conduct it here, even 
weekends, 7 days a week, and how important that is, and 
hopefully, that can be a message that goes to every airport 
across the United States of America.
    Three weeks ago, Logan is the only airport in the country 
instituting an on-site Joint Terrorism Task Force. Furthermore, 
by December 31, 2002, Logan was the first and only major U.S. 
airport to meet the Federally-mandated deadline to have 100 
percent in-line baggage screening for passengers. Today, as 
most people here heard, they're announcing the second 
generation of that kind of screening.
    In August 2006, the Massachusetts State Police started 
roadblocks to conduct random vehicle searches entering the 
airport premises. In March 2011, it became the first U.S. 
airport to fully implement full-body scanners. At least 1,000 
new cameras are in place, including a pilot for a state-of-the-
art 360-degree camera system that will improve video 
surveillance by leaps and bounds. These changes are laudable 
and should serve as the best practices Nation-wide.
    But through my time as Norfolk District Attorney and now in 
my capacity as Congressman for Massachusetts and a Ranking 
Member in this Homeland Security subcommittee, I'm particularly 
concerned about the lack of Nation-wide standards of perimeter 
security. That addresses fences, barriers, areas that surround 
airports.
    According to the GAO, in their 2009 report on the TSA, TSA 
hadn't conducted vulnerability assessments for 87 percent of 
the Nation's 450 commercial airports, nor has it developed a 
Nation-wide strategy that fully addresses perimeter security. 
The lack of adequate perimeter security could, in one of the 
worst-case scenarios, result in individuals with nefarious 
purposes accessing secure airport areas by simply climbing over 
a fence, and in some cases, overcoming even less of a barrier.
    This region has witnessed first-hand the devastating 
results that inadequate airport fencing can lead. In November 
2010, the body of a 16-year-old tragically was found in Milton, 
Mass., Delvonte Tisdale from North Carolina. As a District 
Attorney, I was given the opportunity and the challenge to 
investigate that. Mr. Tisdale's case remains on-going. But 
investigators found that he breached the perimeter of a 
Charlotte Douglas Airport, gained access to an aircraft by 
climbing into and stowing away in the wheel well of a 
commercial airline and subsequently fell to his death as the 
aircraft made its final approach into Boston. Unfortunately, 
this is not an isolated incident.
    We hope today to learn what strides you've made here. We 
hope to share that knowledge Nation-wide. I truly thank all of 
you for taking the time to be with us this morning. Thank you, 
Mr. Chairman. I'll yield my time back.
    Mr. McCaul. I thank the Ranking Member, Mr. Keating. With 
that, I'm going to introduce the witnesses and look forward to 
hearing their testimony.
    First, we have Mr. Stephen Lord. He is the Director of 
Homeland Security and Justice Issues at the Government 
Accountability Office. He is responsible for overseeing and 
directing the GAO's various engagements on issues related to 
aviation and service transportation. In addition to holding a 
bachelor's degree from the University of Virginia, Mr. Lord 
holds an MBA from George Mason University and an M.S. in 
national security strategy from the National War College.
    Thank you, Mr. Lord, for being here today.
    Next, Mr. Chris McLaughlin. He is the Assistant 
Administrator for Security Operations at TSA at the U.S. 
Department of Homeland Security. He has over 10 years' 
experience in airport security, leadership, and operations 
management, as well as extensive experience in managing 
multimillion-dollar projects, developing operational plans and 
strategies, and improving operational and personnel 
performance. Mr. McLaughlin holds a B.A. from Connecticut 
College, where he graduated magna cum laude.
    Next we have Admiral George Naccara. He is the Federal 
Security Director for TSA at the Department of Homeland 
Security. Prior to his work at TSA, the Admiral served 33 years 
in the United States Coast Guard.
    Thank you for your service, Admiral.
    He holds a bachelor's degree from the U.S. Coast Guard 
Academy and a master's degree from Central Michigan University.
    Thank you for being here.
    Next, Mr. Edward Freni--am I pronouncing that right?
    Mr. Freni. Yes.
    Mr. McCaul. I apologize.
    He is director of aviation at the Massachusetts Port 
Authority. Mr. Freni has over 30 years of executive experience 
with Logan International Airport and American Airlines. Mr. 
Freni holds a bachelor of science degree from the Whittemore 
School of Business.
    Thank you so much for being here, and thanks for all you've 
done to make this airport safer.
    Major Michael Concannon is a 26-year veteran of the 
Massachusetts State Police. He currently serves as the 
commanding officer of Troop F at Boston Logan International 
Airport. In this capacity, he also serves as the director of 
aviation security for the Massachusetts Port Authority. He is a 
1987 cum laude graduate of the University of Massachusetts at 
Lowell and a 1996 cum laude graduate of Suffolk University Law 
School. He was admitted to the Massachusetts Bar in December 
1996.
    So I want to thank all of you for being here today.
    With that, I recognize our first witness, Mr. Lord.

 STATEMENT OF STEPHEN M. LORD, DIRECTOR, HOMELAND SECURITY AND 
        JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lord. Chairman McCaul, Ranking Member Keating, thanks 
for inviting me here today to discuss aviation security issues.
    The first thing I'd like to note is, security and 
commercial aviation operations is difficult given the hundreds 
of airports, thousands of daily flights and millions of 
passengers streaming through airport checkpoints on a daily 
basis. I'd also like to note that TSA spends several billion 
dollars each year in this endeavor.
    Today, I'd like to discuss 2 of the 20 layers of aviation 
security. The first is, as you mentioned previously, TSA's 
Behavior Detection Program, also called SPOT. I'd also like to 
discuss various airport perimeter security issues.
    First, regarding TSA's Behavior Detection Program, we 
issued a major report on this program in May 2010. The bottom 
line of our report is, while DHS has made an effort to validate 
the science underlying the program, more actions are needed. 
Additional steps need to be taken to ensure its full validity.
    As we noted in the report, TSA deployed the program on a 
Nation-wide basis before first determining there was a valid 
scientific basis for the program. Earlier this year, April 
2011, DHS completed an initial validation study. But the study 
itself made several important recommendations, additional 
actions that need to be taken to ensure it had a sound 
scientific basis. That was a positive step. But again, 
additional work is going to be needed to be taken to ensure its 
validity.
    Some of the recommendations made in this report mirrored 
the recommendations we made in our big report, such as doing a 
cost-benefit analysis to help guide its deployment.
    I'd also like to briefly highlight another important 
recommendation we made in our SPOT report, and that was to 
empower the Behavior Detection Officers to better link them to 
the intel databases that TSA has at its disposal. We thought 
those links could be improved, because we think it's really 
important to fuse the screening personnel with the intel 
process, sort of to help better connect the dots. As 
Representative McCaul mentioned, that was an important 9/11 
Commission Act recommendation.
    In sum, while TSA has taken actions to address our report 
recommendations, additional steps are still going to need to be 
taken to ensure you can apply these behavior detection 
principles on large-scale in the airport environment.
    I'd now like to discuss some of the findings from our 2009 
Report on Airport Perimeter Security. Now, first of all, I 
think it's important to recognize, TSA undertakes a whole host 
of activities to help secure airport perimeters and maintain 
effective access controls. They do random worker screening. 
They've expanded the requirements for name-based background 
checks. They're encouraging industry to adopt biometric 
security standards. However, at the time of our report, TSA had 
not completed a comprehensive risk assessment of airports. It's 
important to do a risk assessment, because that really helps 
you decide where to focus your resources.
    The risk assessment also that they did complete in July 
2010 did not fully consider the potential vulnerabilities of a 
so-called insider attack, which TSA views as a significant 
threat. The good news is that the risk of an insider attack 
will be included in the next update TSA is doing later this 
year, which is due later this year.
    We also recommended that TSA consider making greater use of 
the so-called joint vulnerability assessments to identify 
airport vulnerabilities, and these are really an important tool 
in the TSA toolbox. In fact, we consider them the gold standard 
because they're rigorous, they're documented and they're 
completed with the FBI. The latest data shows, they've 
completed these at 17 percent of the Nation's airports.
    Again, just to clarify, we're not recommending that you 
need to do them for 100 percent of the airports, but we think 
it's an important tool that they could more effectively apply 
on a larger scale.
    Also one positive development I'd like to reflect is that 
they've recently developed a new tool to help assess airport 
vulnerabilities. It's called the Airport Security Self-
Evaluation Tool, or ASSET, and this thing is just being rolled 
out. So I think over time, as they apply this to airports such 
as Boston, it will help Federal Security Directors, such as Mr. 
Naccara, to help get a better sense of where to focus their 
protective efforts.
    Mr. Chairman, Mr. Keating, this concludes my statement, and 
I look forward to answering any questions that you have. Thank 
you.
    [The statement of Mr. Lord follows:]
                 Prepared Statement of Stephen M. Lord
                           September 16, 2011
                             gao highlights
    Highlights of GAO-11-938T, a testimony before the Subcommittee on 
Oversight, Investigations, and Management, Committee on Homeland 
Security, House of Representatives.
Why GAO Did This Study
    The attempted bombing of Northwest flight 253 in December 2009 
underscores the need for effective aviation security programs. Aviation 
security remains a daunting challenge with hundreds of airports and 
thousands of flights daily carrying millions of passengers and pieces 
of checked baggage. The Department of Homeland Security's (DHS) 
Transportation Security Administration (TSA) has spent billions of 
dollars and implemented a wide range of aviation security initiatives. 
Two key layers of aviation security are: (1) TSA's Screening of 
Passengers by Observation Techniques (SPOT) program designed to 
identify persons who may pose a security risk; and (2) airport 
perimeter and access controls security. This testimony provides 
information on the extent to which TSA has taken actions to validate 
the scientific basis of SPOT and strengthen airport perimeter security. 
This statement is based on prior products GAO issued from September 
2009 through September 2011 and selected updates in August and 
September 2011. To conduct the updates, GAO analyzed documents on TSA's 
progress in strengthening aviation security, among other things.
What GAO Recommends
    GAO has made recommendations in prior work to strengthen TSA's SPOT 
program and airport perimeter and access control security efforts. DHS 
and TSA generally concurred with the recommendations and have actions 
under way to address them.
 aviation security: tsa has made progress, but additional efforts are 
                       needed to improve security
What GAO Found
    DHS completed an initial study in April 2011 to validate the 
scientific basis of the SPOT program; however, additional work remains 
to fully validate the program. In May 2010, GAO reported that TSA 
deployed this program, which uses behavior observation and analysis 
techniques to identify potentially high-risk passengers, before 
determining whether there was a scientifically valid basis for using 
behavior and appearance indicators as a means for reliably identifying 
passengers who may pose a risk to the U.S. aviation system. TSA 
officials said that SPOT was deployed in response to potential threats, 
such as suicide bombers, and was based on scientific research available 
at the time. TSA is pilot testing revised program procedures at Boston-
Logan airport in which behavior detection officers will engage 
passengers entering screening in casual conversation to help determine 
suspicious behaviors. TSA plans to expand this pilot program in the 
fall of 2011. GAO recommended in May 2010 that DHS, as part of its 
validation study, assess the methodology to help ensure the validity of 
the SPOT program. DHS concurred and stated that the study included an 
independent review with a broad range of agencies and experts. The 
study found that SPOT was more effective than random screening to 
varying degrees. However, DHS's study was not designed to fully 
validate whether behavior detection can be used to reliably identify 
individuals in an airport environment who pose a security risk. The 
study also noted that additional work was needed to comprehensively 
validate the program. TSA officials are assessing the actions needed to 
address the study's recommendations but do not have time frames for 
completing this work.
    In September 2009 GAO reported that since 2004 TSA has taken 
actions to strengthen airport perimeter and access controls security 
by, among other things, deploying a random worker screening program; 
however, TSA had not conducted a comprehensive risk assessment or 
developed a National strategy. Specifically, TSA had not conducted 
vulnerability assessments for 87 percent of the approximately 450 U.S. 
airports regulated for security by TSA in 2009. GAO recommended that 
TSA develop: (1) A comprehensive risk assessment and evaluate the need 
to conduct airport vulnerability assessments Nation-wide, and (2) a 
National strategy to guide efforts to strengthen airport security. DHS 
concurred and TSA stated that the Transportation Sector Security Risk 
Assessment, issued in July 2010, was to provide a comprehensive risk 
assessment of airport security. However, this assessment did not 
consider the potential vulnerabilities of airports to an insider 
attack--an attack from an airport worker with authorized access to 
secure areas. In August 2011, TSA reported that transportation security 
inspectors conduct vulnerability assessments annually at all commercial 
airports, including an evaluation of perimeter security. GAO has not 
yet assessed the extent to which inspectors consistently conduct 
vulnerability assessments. TSA also updated the Transportation 
Systems--Sector-Specific Plan, which summarizes airport security 
program activities. However, the extent to which these activities were 
guided by measurable goals and priorities, among other things, was not 
clear. Providing such additional information would better address GAO's 
recommendation.
    Chairman McCaul, Ranking Member Keating, and Members of the 
subcommittee: I appreciate the opportunity to participate in today's 
hearing at Boston-Logan International Airport to discuss two key layers 
of aviation security: The Transportation Security Administration's 
(TSA) behavior-based passenger screening program and airport perimeter 
and access controls.\1\ The attempted terrorist bombing of Northwest 
flight 253 on December 25, 2009, provided a vivid reminder that civil 
aviation remains an attractive terrorist target and underscores the 
need for effective passenger screening. According to the President's 
National Counterterrorism Strategy released in June 2011, aviation 
security and screening is an essential tool in the ability to detect, 
disrupt, and defeat plots to attack the homeland.\2\
---------------------------------------------------------------------------
    \1\ TSA's behavior-based passenger screening program is known as 
the Screening of Passengers by Observation Techniques (SPOT) program.
    \2\ National Strategy for Counterterrorism (Washington, DC: June 
28, 2011).
---------------------------------------------------------------------------
    Securing commercial aviation operations remains a daunting task--
with hundreds of airports, thousands of aircraft, and thousands of 
flights daily carrying millions of passengers and pieces of checked 
baggage. In the almost 10 years that have passed since TSA assumed 
responsibility for aviation security, TSA has spent billions of dollars 
and implemented a wide range of initiatives to strengthen the layers of 
aviation security. For fiscal year 2011, TSA had about 54,800 personnel 
and its budget authority was about $7.7 billion. However, risks to the 
aviation system remain. Earlier this month, we reported on the progress 
made in securing the aviation system in the 10 years since the 
September 11, 2001, attacks and the work that still remains.\3\
---------------------------------------------------------------------------
    \3\ See GAO, Department of Homeland Security: Progress Made and 
Work Remaining In Implementing Homeland Security Missions 10 Years 
After 9/11, GAO-11-881 (Washington, DC: Sept. 7, 2011).
---------------------------------------------------------------------------
    In addition, while airport operators, not TSA, generally retain 
direct day-to-day operational responsibility for airport perimeter 
security and implementing access controls for secure areas of their 
airports, TSA has responsibility for establishing and implementing 
measures to improve security in these areas.\4\ Criminal incidents 
involving airport workers using their access privileges to smuggle 
weapons and drugs into secure areas and onto planes have heightened 
concerns about the risks posed by workers and the security of airport 
perimeters and access to secured areas.
---------------------------------------------------------------------------
    \4\ For the purposes of this testimony, ``secure area'' is used 
generally to refer to areas specified in an airport security program 
for which access is restricted, including the security identification 
display areas (SIDA), the air operations areas (AOA), and the sterile 
areas. While security measures governing access to such areas may vary, 
in general a SIDA is an area in which appropriate identification must 
be worn, an AOA is an area providing access to aircraft movement and 
parking areas, and a sterile area provides passengers access to 
boarding aircraft and where access is generally controlled by TSA or a 
private screening entity under TSA oversight. See 49 C.F.R.  1540.5.
---------------------------------------------------------------------------
    My statement today discusses the extent to which TSA has taken 
actions to: (1) Validate the scientific basis of its behavior-based 
passenger screening program (referred to as SPOT), and (2) strengthen 
the security of airport perimeters and access controls.
    This statement is based on our prior products issued from September 
2009 through September 2011, and includes selected updates conducted in 
August and September 2011 on TSA's efforts to implement our prior 
recommendations regarding SPOT and airport perimeters and access to 
secure areas of airports.\5\ For our May 2010 report on SPOT, we 
reviewed relevant literature on behavior analysis by subject matter 
experts.\6\ We conducted field site visits to 15 TSA-regulated airports 
with SPOT to observe operations and meet with key program personnel.\7\ 
We also interviewed recognized experts in the field, as well as 
cognizant officials from other U.S. Government agencies that utilize 
behavior analysis in their work. For the updates, we analyzed 
documentation from TSA on the actions it has taken to implement the 
recommendations from our May 2010 report, including efforts to validate 
the scientific basis for the program. As part of our efforts to update 
this information, we analyzed DHS's April 2011 SPOT validation study 
and discussed its findings with cognizant DHS officials. For our 
September 2009 report on TSA efforts to secure airport perimeters and 
access controls, we examined TSA documents related to risk assessments, 
airport security programs, and risk management. We also interviewed 
TSA, airport, and industry association officials and conducted site 
visits at nine TSA-regulated airports of varying size.\8\ For the 
updates, we analyzed documentation from TSA on actions it has taken to 
implement recommendations from our 2009 report, including efforts to 
conduct a comprehensive risk assessment and evaluate the need to 
conduct an assessment of security vulnerabilities at airports Nation-
wide, and to develop a National strategy for airport perimeters and 
access controls security that identifies key elements such as goals and 
priorities. As part of our efforts to update this information, we 
analyzed TSA data on the number of vulnerability assessments conducted 
at airports from fiscal year 2004 through July 1, 2011, by airport. 
More detailed information on our scope and methodology can be found in 
our prior reports.
---------------------------------------------------------------------------
    \5\ See GAO, Aviation Security: A National Strategy and Other 
Actions Would Strengthen TSA's Efforts to Secure Commercial Airport 
Perimeters and Access Controls, GAO-09-399 (Washington, DC: Sept. 30, 
2009); Aviation Security: Efforts to Validate TSA's Passenger Screening 
Behavior Detection Program Underway, but Opportunities Exist to 
Strengthen Validation and Address Operational Challenges, GAO-10-763 
(Washington, DC: May 20, 2010); Aviation Security: TSA Has Taken 
Actions to Improve Security, but Additional Efforts Remain, GAO-11-807T 
(Washington, DC: Jul. 13, 2011); and GAO-11-881.
    \6\ National Research Council, Protecting Individual Privacy in the 
Struggle Against Terrorists: A Framework for Assessment (Washington, 
DC: National Academies Press, 2008). The report's preparation was 
overseen by the National Academy of Sciences Committee on Technical and 
Privacy Dimensions of Information for Terrorism Prevention and Other 
National Goals. Although the report addresses broader issues related to 
privacy and data mining, a senior National Research Council official 
stated that the committee included behavior detection as a focus 
because any behavior detection program could have privacy implications.
    \7\ For the purposes of this testimony, the term ``TSA-regulated 
airport'' refers to a U.S. airport operating under a TSA-approved 
security program and subject to TSA regulation and oversight. See 49 
C.F.R. pt. 1542.
    \8\ See GAO-09-399.
---------------------------------------------------------------------------
    All of our work was conducted in accordance with generally accepted 
Government auditing standards.
                               background
    The Aviation and Transportation Security Act established TSA as the 
Federal agency with primary responsibility for securing the Nation's 
civil aviation system, which includes the screening of all passenger 
and property transported by commercial passenger aircraft.\9\ At the 
463 TSA-regulated airports in the United States, prior to boarding an 
aircraft, all passengers, their accessible property, and their checked 
baggage are screened pursuant to TSA-established procedures, which 
include passengers passing through security checkpoints where they and 
their identification documents are checked by transportation security 
officers (TSO) and other TSA employees or by private-sector screeners 
under TSA's Screening Partnership Program.\10\ Airport operators, 
however, are directly responsible for implementing TSA security 
requirements, such as those relating to perimeter security and access 
controls, in accordance with their approved security programs and other 
TSA direction.
---------------------------------------------------------------------------
    \9\ See Pub. L. No. 107-71, 115 Stat. 597 (2001). For purposes of 
this testimony, ``commercial passenger aircraft'' refers to a U.S. or 
foreign-based air carrier operating under TSA-approved security 
programs with regularly scheduled passenger operations to or from a 
U.S. airport.
    \10\ Private-sector screeners under contract to and overseen by 
TSA, and not TSOs, perform screening activities at airports 
participating in TSA's Screening Partnership Program. See 49 U.S.C.  
44920. According to TSA, 16 airports participated in the program as of 
July 2011.
---------------------------------------------------------------------------
    TSA relies upon multiple layers of security to deter, detect, and 
disrupt persons posing a potential risk to aviation security. These 
layers include behavior detection officers (BDO), who examine passenger 
behaviors and appearances to identify passengers who might pose a 
potential security risk at TSA-regulated airports;\11\ TSA has 
selectively deployed about 3,000 BDOs to 161 of 463 TSA-regulated 
airports in the United States, including Boston-Logan airport where the 
program was initially deployed in 2003. Other security layers include 
travel document checkers, who examine tickets, passports, and other 
forms of identification; TSOs responsible for screening passengers and 
their carry-on baggage at passenger checkpoints, using X-ray equipment, 
magnetometers, Advanced Imaging Technology, and other devices; random 
employee screening; and checked baggage screening systems.\12\ 
Additional layers cited by TSA include, among others, intelligence 
gathering and analysis; passenger prescreening against terrorist watch 
lists; random canine team searches at airports; Federal air marshals, 
who provide Federal law enforcement presence on selected flights 
operated by U.S. air carriers; Visible Intermodal Protection Response 
(VIPR) teams; reinforced cockpit doors; the passengers themselves; as 
well as other measures both visible and invisible to the public.\13\ 
Figure 1 shows TSA's layers of aviation security. TSA has also 
implemented a variety of programs and protective actions to strengthen 
airport perimeters and access to sensitive areas of the airport, 
including conducting additional employee background checks and 
assessing different biometric-identification technologies.\14\ Airport 
perimeter and access control security is intended to prevent 
unauthorized access into secure areas of an airport--either from 
outside or within the airport complex.
---------------------------------------------------------------------------
    \11\ TSA designed SPOT to provide BDOs with a means of identifying 
persons who may pose a potential security risk at TSA-regulated 
airports by focusing on behaviors and appearances that deviate from an 
established baseline and that may be indicative of stress, fear, or 
deception.
    \12\ Advanced Imaging Technology screens passengers for metallic 
and non-metallic threats including weapons, explosives, and other 
objects concealed under layers of clothing.
    \13\ Working alongside local security and law enforcement 
officials, VIPR teams conduct a variety of security tactics to 
introduce unpredictability and deter potential terrorist actions, 
including random high-visibility patrols at mass transit and passenger 
rail stations and conducting passenger and baggage screening operations 
using specially trained behavior detection officers and a varying 
combination of explosive detection canine teams and explosives 
detection technology.
    \14\ Biometrics are measurements of an individual's unique 
characteristics, such as fingerprints, irises, and facial 
characteristics, used to verify identity. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    According to TSA, each one of these layers alone is capable of 
stopping a terrorist attack. TSA states that the security layers in 
combination multiply their value, creating a much stronger system, and 
that a terrorist who has to overcome multiple security layers to carry 
out an attack is more likely to be pre-empted, deterred, or to fail 
during the attempt.
 tsa has taken actions to validate the science underlying its behavior 
                detection program, but more work remains
    We reported in May 2010 that TSA deployed SPOT Nation-wide before 
first determining whether there was a scientifically valid basis for 
using behavior and appearance indicators as a means for reliably 
identifying passengers who may pose a risk to the U.S. aviation 
system.\15\ DHS's Science and Technology Directorate completed a 
validation study in April 2011 to determine the extent to which SPOT 
was more effective than random screening at identifying security 
threats and how the program's behaviors correlate to identifying high-
risk travelers.\16\ However, as noted in the study, the assessment was 
an initial validation step, but was not designed to fully validate 
whether behavior detection can be used to reliably identify individuals 
in an airport environment who pose a security risk. According to DHS, 
additional work will be needed to comprehensively validate the program.
---------------------------------------------------------------------------
    \15\ See GAO-10-763.
    \16\ See DHS, SPOT Referral Report Validation Study Final Report 
Volume I: Technical Report (Washington, DC: April 5, 2011). DHS's study 
defines high-risk passengers as travelers that knowingly and 
intentionally try to defeat the security process including those 
carrying serious prohibited items, such as weapons; illegal items, such 
as drugs; or fraudulent documents; or those that were ultimately 
arrested by law enforcement.
---------------------------------------------------------------------------
    According to TSA, SPOT was deployed before a scientific validation 
of the program was completed to help address potential threats to the 
aviation system, such as those posed by suicide bombers. TSA also 
stated that the program was based upon scientific research available at 
the time regarding human behaviors. We reported in May 2010 that 
approximately 14,000 passengers were referred to law enforcement 
officers under SPOT from May 2004 through August 2008.\17\ Of these 
passengers, 1,083 were arrested for various reasons, including being 
illegal aliens (39 percent), having outstanding warrants (19 percent), 
and possessing fraudulent documents (15 percent). The remaining 27 
percent were arrested for other reasons. As noted in our May 2010 
report, SPOT officials told us that it is not known if the SPOT program 
has resulted in the arrest of anyone who is a terrorist, or who was 
planning to engage in terrorist-related activity. According to TSA, in 
fiscal year 2010, SPOT referred about 50,000 passengers for additional 
screening and about 3,600 referrals to law enforcement officers. The 
referrals to law enforcement officers yielded approximately 300 
arrests. Of these 300 arrests, TSA stated that 27 percent were illegal 
aliens, 17 percent were drug-related, 14 percent were related to 
fraudulent documents, 12 percent were related to outstanding warrants, 
and 30 percent were related to other offenses. DHS has requested about 
$254 million for fiscal year 2012 for the SPOT program, which would 
support an additional 350 (or 175 full-time equivalent) BDOs. If TSA 
receives its requested appropriation, TSA will be in a position to have 
invested about $1 billion in the SPOT program since fiscal year 2007.
---------------------------------------------------------------------------
    \17\ See GAO-10-763.
---------------------------------------------------------------------------
    According to TSA, as of August 2011, TSA is pilot testing revised 
procedures for BDOs at Boston-Logan airport to engage passengers 
entering screening in casual conversation to help determine suspicious 
behaviors. According to TSA, after a passenger's travel documents are 
verified, a BDO will briefly engage each passenger in conversation. If 
more information is needed to help determine suspicious behaviors, the 
officer will refer the passenger to a second BDO for a more thorough 
conversation to determine if additional screening is needed. TSA noted 
that these BDOs have received additional training in interviewing 
methods. TSA plans to expand this pilot program to additional airports 
in the fall of 2011.
    A 2008 report issued by the National Research Council of the 
National Academy of Sciences stated that the scientific evidence for 
behavioral monitoring is preliminary in nature.\18\ The report also 
noted that an information-based program, such as a behavior detection 
program, should first determine if a scientific foundation exists and 
use scientifically valid criteria to evaluate its effectiveness before 
deployment. The report added that such programs should have a sound 
experimental basis and that the documentation on the program's 
effectiveness should be reviewed by an independent entity capable of 
evaluating the supporting scientific evidence.\19\ According to the 
report, a terrorist's desire to avoid detection makes information-
gathering techniques, such as asking what a person has done, is doing, 
or plans to do, highly unreliable. Using these techniques to elicit 
information could also have definite privacy implications. These 
findings, in particular, may be important as TSA moves forward with its 
pilot program to expand BDOs' use of conversation and interviews with 
all passengers entering screening.
---------------------------------------------------------------------------
    \18\ Specifically, the report states that the scientific support 
for linkages between behavioral and physiological markers and mental 
state is strongest for elementary states, such as simple emotions; weak 
for more complex states, such as deception; and nonexistent for highly 
complex states, such as when individuals hold terrorist intent and 
beliefs.
    \19\ A study performed by the JASON Program Office raised similar 
concerns. The JASON Program Office is an independent scientific 
advisory group that provides consulting services to the U.S. Government 
on matters of defense science and technology.
---------------------------------------------------------------------------
    As we reported in May 2010, an independent panel of experts could 
help DHS develop a comprehensive methodology to determine if the SPOT 
program is based on valid scientific principles that can be effectively 
applied in an airport environment for counterterrorism purposes. Thus, 
we recommended that the Secretary of Homeland Security convene an 
independent panel of experts to review the methodology of the 
validation study on the SPOT program being conducted to determine 
whether the study's methodology was sufficiently comprehensive to 
validate the SPOT program. We also recommended that this assessment 
include appropriate input from other Federal agencies with expertise in 
behavior detection and relevant subject matter experts.\20\ DHS 
concurred and stated that its validation study, completed in April 
2011, included an independent review of the study with input from a 
broad range of Federal agencies and relevant experts, including those 
from academia.
---------------------------------------------------------------------------
    \20\ See GAO-10-763.
---------------------------------------------------------------------------
    DHS's validation study found that SPOT was more effective than 
random screening to varying degrees. For example, the study found that 
SPOT was more effective than random screening at identifying 
individuals who possessed fraudulent documents and identifying 
individuals who law enforcement officers ultimately arrested.\21\ 
However, DHS noted that the identification of such high-risk passengers 
was rare in both the SPOT and random tests. In addition, DHS determined 
that the base rate, or frequency, of SPOT behavioral indicators 
observed by TSA to detect suspicious passengers was very low and that 
these observed indicators were highly varied across the traveling 
public. Although details about DHS's findings related to these 
indicators are sensitive security information, the low base rate and 
high variability of traveler behaviors highlights the challenge that 
TSA faces in effectively implementing a standardized list of SPOT 
behavioral indicators.
---------------------------------------------------------------------------
    \21\ The extent to which SPOT is more effective than random at 
identifying fraudulent documents and individuals ultimately arrested by 
law enforcement officers is deemed sensitive security information by 
TSA.
---------------------------------------------------------------------------
    In addition, DHS outlined several limitations to the study. For 
example, the study noted that BDOs were aware of whether individuals 
they were screening were referred to them as the result of identified 
SPOT indicators or random selection. DHS stated that this had the 
potential to introduce bias into the assessment. DHS also noted that 
SPOT data from January 2006 through October 2010 were used in its 
analysis of behavioral indicators even though questions about the 
reliability of the data exist.\22\ In May 2010, we reported weaknesses 
in TSA's process for maintaining operational data from the SPOT program 
database. Specifically, the SPOT database did not have computerized 
edit checks built into the system to review the format, existence, and 
reasonableness of data. In another example, BDOs could not input all 
behaviors observed in the SPOT database because the database limited 
entry to eight behaviors, six signs of deception, and four types of 
prohibited items per passenger referred for additional screening. 
Because of these data-related issues, we reported that meaningful 
analyses could not be conducted at that time to determine if there is 
an association between certain behaviors and the likelihood that a 
person displaying certain behaviors would be referred to a law 
enforcement officer or whether any behavior or combination of behaviors 
could be used to distinguish deceptive from nondeceptive individuals. 
In our May 2010 report, we recommended that TSA establish controls for 
this SPOT data. DHS agreed and TSA has established additional data 
controls as part of its database upgrade. However, some of DHS's 
analysis for this study used SPOT data recorded prior to these 
additional controls being implemented.
---------------------------------------------------------------------------
    \22\ DHS officials stated that this historical SPOT data was not 
used in their analysis to determine whether SPOT was more effective 
than random screening.
---------------------------------------------------------------------------
    The study also noted that it was not designed to comprehensively 
validate whether SPOT can be used to reliably identify individuals in 
an airport environment who pose a security risk. The DHS study made 
recommendations related to strengthening the program and conducting a 
more comprehensive validation of whether the science can be used for 
counterterrorism purposes in the aviation environment.\23\ Some of 
these recommendations, such as the need for a comprehensive program 
evaluation including a cost-benefit analysis, reiterate recommendations 
made in our May 2010 report. TSA is currently reviewing the study's 
findings and assessing the steps needed to address DHS's 
recommendations but does not have time frames for completing this work. 
If TSA decides to implement the recommendations in the April 2011 DHS 
validation study, DHS may be years away from knowing whether there is a 
scientifically valid basis for using behavior detection techniques to 
help secure the aviation system against terrorist threats given the 
broad scope of the additional work and related resources identified by 
DHS for addressing the recommendations. Thus, as we reported in March 
2011, Congress may wish to consider the study's results in making 
future funding decisions regarding the program.\24\
---------------------------------------------------------------------------
    \23\ The study made recommendations related to SPOT in three areas: 
(1) Future validation efforts; (2) comparing SPOT with other screening 
programs; and (3) broader program evaluation issues. TSA designated the 
specific details of these recommendations sensitive security 
information.
    \24\ See GAO, Opportunities to Reduce Potential Duplication in 
Government Programs, Save Tax Dollars, and Enhance Revenue, GAO-11-
318SP (Washington, DC: Mar. 1, 2011).
---------------------------------------------------------------------------
   tsa has taken actions to strengthen airport perimeter and access 
                  controls security, but issues remain
    We reported in September 2009 that TSA has implemented a variety of 
programs and actions since 2004 to improve and strengthen airport 
perimeter and access controls security, including strengthening worker 
screening and improving access control technology.\25\ For example, to 
better address the risks posed by airport workers, in 2007 TSA 
implemented a random worker screening program that was used to enforce 
access procedures, such as ensuring workers display appropriate 
credentials and do not possess unauthorized items when entering secure 
areas. According to TSA officials, this program was developed to help 
counteract the potential vulnerability of airports to an insider 
attack--an attack from an airport worker with authorized access to 
secure areas. TSA has also expanded its requirements for conducting 
worker background checks and the population of individuals who are 
subject to these checks. For example, in 2007 TSA expanded requirements 
for name-based checks to all individuals seeking or holding airport-
issued identification badges and in 2009 began requiring airports to 
renew all airport-identification media every 2 years. TSA also reported 
taking actions to identify and assess technologies to strengthen 
airport perimeter and access controls security, such as assisting the 
aviation industry and a Federal aviation advisory committee in 
developing security standards for biometric access controls.
---------------------------------------------------------------------------
    \25\ GAO-09-399.
---------------------------------------------------------------------------
    However, we reported in September 2009 that while TSA has taken 
actions to assess risk with respect to airport perimeter and access 
controls security, it had not conducted a comprehensive risk assessment 
based on assessments of threats, vulnerabilities, and consequences, as 
required by DHS's National Infrastructure Protection Plan (NIPP).\26\ 
We further reported that without a full depiction of threats, 
vulnerabilities, and consequences, an organization's ability to 
establish priorities and make cost-effective security decisions is 
limited.\27\ We recommended that TSA develop a comprehensive risk 
assessment, along with milestones for completing the assessment. DHS 
concurred with our recommendation and said it would include an 
assessment of airport perimeter and access control security risks as 
part of a comprehensive assessment for the transportation sector--the 
Transportation Sector Security Risk Assessment (TSSRA). The TSSRA, 
published in July 2010, included an assessment of various risk-based 
scenarios related to airport perimeter security but did not consider 
the potential vulnerabilities of airports to an insider attack--the 
insider threat--which it recognized as a significant issue. In July 
2011, TSA officials told us that the agency is developing a framework 
for insider risk that is to be included in the next iteration of the 
assessment, which TSA expected to be released at the end of calendar 
year 2011. Such action, if taken, would meet the intent of our 
recommendation.
---------------------------------------------------------------------------
    \26\ GAO-09-399. DHS developed the NIPP to guide risk assessment 
efforts and the protection of the Nation's critical infrastructure, 
including airports.
    \27\ See GAO, Transportation Security: Comprehensive Risk 
Assessments and Stronger Internal Controls Needed to Help Inform TSA 
Resource Allocation, GAO-09-492 (Washington, DC: Mar. 27, 2009).
---------------------------------------------------------------------------
    We also recommended that, as part of a comprehensive risk 
assessment of airport perimeter and access controls security, TSA 
evaluate the need to conduct an assessment of security vulnerabilities 
at airports Nation-wide.\28\ At the time of our review, TSA told us its 
primary measures for assessing the vulnerability of airports to attack 
were professional judgment and the collective results of joint 
vulnerability assessments (JVA) it conducts with the Federal Bureau of 
Investigation (FBI) for select--usually high-risk--airports.\29\ Our 
analysis of TSA data showed that from fiscal years 2004 through 2008, 
TSA conducted JVAs at about 13 percent of the approximately 450 TSA-
regulated airports that existed at that time, thus leaving about 87 
percent of airports unassessed.\30\ TSA has characterized U.S. airports 
as an interdependent system in which the security of all is affected or 
disrupted by the security of the weakest link. However, we reported 
that TSA officials could not explain to what extent the collective JVAs 
of specific airports constituted a reasonable systems-based assessment 
of vulnerability across airports Nation-wide. Moreover, TSA officials 
said that they did not know to what extent the 87 percent of commercial 
airports that had not received a JVA as of September 2009--most of 
which were smaller airports--were vulnerable to an intentional security 
breach. DHS concurred with our 2009 report recommendation to assess the 
need for a vulnerability assessment of airports Nation-wide, and TSA 
officials stated that based on our review they intended to increase the 
number of JVAs conducted at Category II, III, and IV airports and use 
the resulting data to assist in prioritizing the allocation of limited 
resources. Our analysis of TSA data showed that from fiscal year 2004 
through July 1, 2011, TSA conducted JVAs at about 17 percent of the 
TSA-regulated airports that existed at that time, thus leaving about 83 
percent of airports unassessed.\31\
---------------------------------------------------------------------------
    \28\ GAO-09-399.
    \29\ According to TSA officials, JVAs are assessments that teams of 
TSA special agents and other officials conduct jointly with the FBI, 
generally, as required by law, every 3 years for airports identified as 
high-risk. See 49 U.S.C.  44904(a)-(b). See also Pub. L. No. 104-264, 
 310, 110 Stat. 3213, 3253 (1996) (establishing the requirement that 
the Federal Aviation Administration (FAA) and the FBI conduct joint 
threat and vulnerability assessments every 3 years, or more frequently, 
as necessary, at each airport determined to be high-risk). Pursuant to 
ATSA, responsibility for conducting JVAs transferred from FAA to TSA. 
For more information on this issue, see GAO-09-399.
    \30\ From fiscal years 2004 through 2008 TSA conducted 67 JVAs at a 
total of 57 airports; 10 airports received 2 JVAs. TSA classifies the 
Nation's airports into one of five categories (X, I, II, III, and IV) 
based on various factors such as the number of take-offs and landings 
annually, the extent of passenger screening at the airport, and other 
security considerations. In general, Category X airports have the 
largest number of passenger boardings and Category IV airports have the 
smallest. According to TSA data, of the 67 JVAs conducted at 57 
airports from fiscal years 2004 through 2008, 58--or 87 percent--were 
Category X and I airports. Of the remaining 9 assessments, 6 were at 
Category II airports, 1 at a Category III airport, and 2 at Category IV 
airports. Since our September 2009 report was issued, the number of 
TSA-regulated airports has increased from approximately 450 to 463.
    \31\ From fiscal year 2004 through July 1, 2011, TSA conducted 125 
JVAs at 78 airports; 47 airports received more than one JVA during this 
period.
---------------------------------------------------------------------------
    Since we issued our report in September 2009, TSA had not conducted 
JVAs at Category III and IV airports.\32\ TSA stated that the TSSRA is 
to provide a comprehensive risk assessment of airport security, but 
could not tell us to what extent it has studied the need to conduct 
JVAs of security vulnerabilities at airports Nation-wide. Additionally, 
in August 2011 TSA reported that its National inspection program 
requires that transportation security inspectors conduct vulnerability 
assessments at all commercial airports, which are based on the joint 
vulnerability assessment model. According to TSA, every commercial 
airport in the United States receives a security assessment each year, 
including an evaluation of perimeter security and access controls. We 
have not yet assessed the extent to which transportation security 
inspectors consistently conduct vulnerability assessments based on the 
joint vulnerability model. Providing additional information on how and 
to what extent such security assessments have been performed would more 
fully address our recommendation.
---------------------------------------------------------------------------
    \32\ From fiscal year 2009 through July 1, 2011, TSA conducted 58 
JVAs at a total of 56 airports; 2 airports received 2 JVAs. According 
to TSA data, of the 58 JVAs conducted, 47--or 88 percent--were at 
Category X and I airports; 7-12 percent--were conducted at Category II 
airports. TSA officials told us that since our report in September 2009 
they have initiated a semi-annual report process that, in part, 
included a data analysis of the JVAs conducted at airports for the 
prior 6 months. The semi-annual report focuses on airport perimeter, 
terminal, critical infrastructure, airport operations, and airport 
services. Beginning in fiscal year 2011 the reports are to be developed 
on an annual basis. The reports are also used to direct future JVA 
efforts.
---------------------------------------------------------------------------
    We also reported in September 2009 that TSA's efforts to enhance 
the security of the Nation's airports have not been guided by a 
National strategy that identifies key elements, such as goals, 
priorities, performance measures, and required resources.\33\ To better 
ensure that airport stakeholders take a unified approach to airport 
security, we recommended that TSA develop a National strategy for 
airport security that incorporates key characteristics of effective 
security strategies, such as measurable goals and priorities. DHS 
concurred with this recommendation and stated that TSA would implement 
it by updating the Transportation Systems--Sector Specific Plan (TS-
SSP), to be released in the summer of 2010.\34\ TSA provided a copy of 
the updated plan to Congressional committees in June 2011 and to us in 
August 2011. We reviewed this plan and its accompanying aviation model 
annex and found that while the plan provided a high-level summary of 
program activities for addressing airport security such as the 
screening of workers, the extent to which these efforts would be guided 
by measurable goals and priorities, among other things, was not clear. 
Providing such additional information would better address the intent 
of our recommendation.
---------------------------------------------------------------------------
    \33\ GAO-09-399.
    \34\ TSA developed the TS-SSP to conform to NIPP requirements, 
which required sector-specific agencies to develop strategic risk 
management frameworks for their sectors that aligned with NIPP 
guidance.
---------------------------------------------------------------------------
    Chairman McCaul, Ranking Member Keating, and Members of the 
subcommittee, this concludes my statement. I look forward to answering 
any questions that you may have at this time.

    Mr. McCaul. Thank you, again, Mr. Lord.
    The Chairman now recognizes Mr. McLaughlin for his 
testimony.

  STATEMENT OF CHRIS MC LAUGHLIN, ASSISTANT ADMINISTRATOR FOR 
 SECURITY OPERATIONS, TRANSPORTATION SECURITY ADMINISTRATION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. McLaughlin. Good morning, Chairman McCaul and Ranking 
Member Keating. I'm pleased to appear before you today to 
discuss aspects of the Transportation Security Administration's 
security operations at U.S. commercial airports. I will 
restrict my comments to broader TSA policies and objectives 
while Federal Security Director Naccara will address issues and 
initiatives specific to Boston Logan International Airport.
    As you know, the Aviation and Transportation Security Act, 
or ATSA, authorized TSA to work with U.S. airports and 
operators to strengthen security at access and critical control 
points throughout the United States. While TSA's aviation 
security standards provide a foundation for a comprehensive 
National program, the distinctive footprint, location, and 
requirements of each airport require each facility to have its 
own airport security program.
    TSA secures commercial airports through a variety of 
programs. The programs most familiar to the traveling public 
include passenger screening operations conducted by 
Transportation Security Officers at security checkpoints, 
carry-on and checked baggage screening, and the Secure Flight 
Program which fulfills a key 9/11 Commission recommendation to 
implement a uniform watchlist matching program for all 
passengers traveling from, within, or bound for United States 
against names on Government terrorist watch lists.
    Other layers of security play an equally important role and 
focus on preventing and detecting the unauthorized entry, 
presence, and movement of individuals and ground vehicles into 
and within the secured and airport operations areas of an 
airport. TSA maintains random and unpredictable security 
measures that may be employed at direct access points and 
airport perimeters, including vehicle inspections, explosive 
trace detection, enhanced screening, accessible property 
searches, as well as behavior detection.
    As required by statute, TSA proscribes procedures for 
screening individuals, inspecting goods, property, vehicles, 
and other equipment before entering into the secure area of an 
airport. These procedures safeguard against unauthorized 
persons having access to aircraft, thereby reducing 
opportunities for criminal behavior. These safeguards also help 
ensure the safety and integrity of other individuals involved 
in aviation, including aircraft service providers and workers 
involved in catering and passenger amenities on-board aircraft. 
Like-wise, TSA requires security access programs for vendors 
with direct access to airfields and aircraft.
    Ultimately, the airport authority is responsible for 
abiding by the perimeter security regulations set by TSA and 
must establish procedures for its personnel and resources. TSA 
also conducts airport inspections to enhance security and 
mitigate risk associated with perimeter security. These include 
joint vulnerability assessments as well as regulatory special 
emphasis inspections that focus on specific aspects of the 
operation and the testing of airport access control processes. 
Based upon the results of these inspections and assessments, 
TSA develops mitigation strategies to enhance an airport's 
security posture and determine if any changes are required.
    To counter the potential risk to perimeter security, TSA 
also deploys Transportation Security Inspectors to help 
determine whether airport operators are complying with TSA 
regulations and the airport's ASP. TSIs focus their assessments 
on security throughout the airport environments ranging from 
the curbside of the airport to the outermost perimeter fences. 
TSIs can recommend that civil penalties be assessed by TSA when 
repeated or egregious instances of noncompliance of regulations 
and security procedures are discovered.
    Earlier this year, TSA initiated a special emphasis 
assessment and a special emphasis inspection of all Category X 
and I through IV airports evaluating perimeter security, 
including fencing, nonfence, manmade barriers, natural 
barriers, CCTV, electronic intrusion and motion detection 
devices and other barriers. Assessments are complete at all Cat 
X and I airports and the remaining airport assessments are 
expected to be completed later this month.
    TSA's goal at all times is to maximize transportation 
security and stay ahead of evolving terrorist threats while 
protecting passengers' privacy and facilitating the efficient 
flow of travelers and legitimate commerce.
    I want to thank the subcommittee for this opportunity to 
speak to you today and discuss these important issues, and I'm 
happy to answer any questions that you might have.
    [The joint prepared statement of Mr. McLaughlin and Admiral 
Naccara follows:]
 Joint Prepared Statement of Christopher McLaughlin and George Naccara
                           September 16, 2011
    Good morning, Chairman McCaul, Ranking Member Keating, and 
distinguished Members of the subcommittee. We are pleased to appear 
before you today to discuss the Transportation Security 
Administration's (TSA) security operations at U.S. commercial airports 
and to address any questions you may have about security at Logan 
International Airport (BOS) in particular.
    As you know, the Aviation and Transportation Security Act (ATSA), 
(Pub. L. 107-71), authorized TSA to work with U.S. airport operators to 
strengthen security at access and critical control points throughout 
the United States to maximize the security of passengers and aircraft.
    While TSA's aviation security standards provide a foundation for a 
comprehensive National aviation security program, the distinctive 
footprint, location, and requirements of each airport require each 
facility to have its own Airport Security Program (ASP). The ASP at 
Logan Airport incorporates specific security elements including 
perimeter security measures, addressing the prevention and detection of 
the unauthorized entry, presence, and movement of individuals and 
vehicles into and within secured areas that may be unique to Logan.
   tsa's primary mission: preventing terrorism and enhancing security
    TSA secures our Nation's commercial airports through a variety of 
programs. The programs most familiar to the traveling public include 
passenger screening operations conducted by Transportation Security 
Officers (TSOs) at security checkpoints; carry-on and checked baggage 
screening; and the Secure Flight program, which fulfills a key 9/11 
Commission recommendation to implement a uniform watch list matching 
program for all passengers traveling from, within, or bound for the 
United States against names on Government terrorist watch lists. Other 
layers of security play an equally important role in safeguarding our 
Nation against terrorist threats. These additional layers include the 
prevention and detection of unauthorized entry, presence, and movement 
of individuals and ground vehicles into, and within, the secured and 
Airport Operations Areas (AOA) of an airport.
    TSA's risk-based and intelligence-driven Security Playbook program 
strengthens the transportation security environment by increasing 
unpredictability and providing additional layers of security. This 
program employs security measures at direct access points and airport 
perimeters and uses a variety of resources and equipment to conduct 
screening of individuals and vehicles entering the secured area. 
Examples of the security measures that may be employed at direct access 
points and airport perimeters include: Vehicle inspections, explosives 
trace detection of individuals and property, enhanced screening, 
accessible property searches, and identification/media verifications, 
as well as behavior detection.
                behavior detection pilot program at bos
    TSA has long recognized the value of a layered, threat-based 
approach to transportation security and the need to focus more of our 
resources on people we know less about who potentially pose a threat to 
aviation security.
    As part of its on-going commitment to implement risk-based security 
measures, TSA is conducting a pilot program at BOS designed to assess 
the expanded use of behavior detection in the airport screening 
process. Extensive research indicates behavior analysis and 
interviewing are effective methods for detecting hostile intent and 
potential high-risk individuals. TSA's own behavior detection program, 
the Screening of Passengers by Observation Techniques (SPOT) program--
whose indicators have been scientifically validated through research 
conducted by the DHS Science and Technology Directorate--revealed that 
behavior detection was effective for identifying persons attempting to 
defeat the screening process. BOS was the first airport in the country 
to implement the agency's SPOT program, which is now employed at more 
than 160 airports Nation-wide.
    As part of the pilot, TSA is utilizing specially trained and 
certified Behavior Detection Officers (BDOs) who are focusing on 
increased passenger interactions and behavior analysis in conjunction 
with boarding pass and identification review at the entrance to the 
checkpoint. The advanced training the officers receive includes both 
classroom and on-the-job training designed to enhance their 
communication skills to engage in conversations with passengers to 
determine whether they pose a threat to transportation security. 
Although the vast majority of passengers will experience a casual 
greeting conversation with the BDO as they begin the security 
checkpoint screening process, a small number of passengers may be 
selected for an extended, but still limited, conversation and possibly 
for additional screening.
    The goal of this pilot is to understand how behavior detection can 
be used to improve both the effectiveness of transportation security 
and the passenger experience. TSA will evaluate how this pilot program 
impacts security, screening operations and passenger throughput, among 
other things, and these results will help determine how the agency 
proceeds with the program.
        collaboration: an essential component of security at bos
    Collaboration is an essential component of transportation security. 
Since its creation, TSA has engaged Massport, the Massachusetts State 
Police, and the airline carriers in a cooperative and complementary 
effort to enhance security throughout Logan Airport, best exemplified 
by the daily morning security briefing. At this meeting, we discuss 
incidents of the previous day, new security measures, and plans for the 
coming days and weeks. It is an opportunity for everyone to share their 
views and concerns to reach a common understanding of roles and 
responsibilities.
    Some of the tangible results arising from the cooperative 
atmosphere include:
  <bullet> Massport and the State Police partnership with TSA assets to 
        develop and execute ``plays'' that deploy varying security 
        measures on a random basis throughout the terminals and the 
        secure areas of the airport;
  <bullet> In the event of an incident, TSA, Massport, State Police, 
        and the affected carriers convene an immediate conference call 
        to determine the facts, assess the risk, and jointly decide on 
        a course of action to resolve the matter with as little 
        disruption as possible to the continued operation of the 
        airport;
  <bullet> TSA and Massport have worked together to improve Closed 
        Circuit Television (CCTV) coverage of the airport's critical 
        areas, providing TSA officials with real-time access to all of 
        the camera views from within TSA offices; and
  <bullet> Cooperation extends across the Federal level as well, as 
        illustrated by the creation of the Nation's first airport-based 
        counterterrorism office. DHS components, including TSA, U.S. 
        Customs and Border Protection (CBP), and U.S. Immigration and 
        Customs Enforcement (ICE) will work at the FBI's newly-opened 
        Joint Terrorism Task Force (JTTF) office at Logan Airport to 
        improve communications on security-related tasks.
              perimeter security: a shared responsibility
    As required by statute, TSA prescribes procedures for screening 
individuals, and inspecting goods, property, vehicles, and other 
equipment before entry into the secured area of an airport. These 
security access regulations, directives, and procedures safeguard 
against unauthorized persons having access to aircraft, thereby 
reducing opportunities for criminal violence, sabotage, or other 
destructive acts. These safeguards help to ensure the safety and 
integrity of individuals involved in the aviation domain, including 
aircraft service providers and workers involved in catering and 
passenger amenities on-board aircraft. Similarly, TSA requires security 
access programs for vendors with direct access to airfields and 
aircraft. Ultimately, the airport authority is responsible for abiding 
by the perimeter security regulations set by TSA and must establish 
procedures for its personnel and resources, which may include law 
enforcement personnel, to ensure compliance with the regulatory 
requirements.
         transportation security inspectors monitor compliance
    TSA conducts on-going and comprehensive airport inspections to 
enhance security and mitigate risk associated with perimeter integrity, 
including Joint Vulnerability Assessments, conducted with the Federal 
Bureau of Investigations (FBI), regulatory Special Emphasis Inspections 
(SEIs) that focus on specific aspects of operations, and the testing of 
access control processes at airports. Based upon the results of these 
inspections and assessments, TSA develops mitigation strategies that 
enhance an airport's security posture and determines if any changes are 
required. TSA collaborates with airport operators to identify effective 
practices across the industry regarding access control and perimeter 
security.
    To counter the potential risks to perimeter security, TSA deploys 
Transportation Security Inspectors (TSIs) to help determine whether 
airport operators are complying with all aspects of TSA regulations and 
the airport's ASP, as well as to provide strategic oversight regarding 
an airport's compliance status. The collaborative effort between TSA 
and the airport results in security enhancements to the airport and, 
where appropriate, amendments to the airport's ASP.
    TSIs focus their assessments on security throughout the airport 
environments, ranging from the curbside of the airport to the outermost 
perimeter fence along the edge of the airport property. Regional 
Security Inspectors (RSIs) located at TSA headquarters also conduct 
annual and periodic oversight assessments of inspection activity for 
air carrier and airport facilities at Category X, I, and II airports. 
TSIs can recommend that civil penalties be assessed by TSA when 
repeated or egregious instances of noncompliance with regulations and 
security procedures are discovered.
    Earlier this year, TSA's Office of Security Operations--Compliance 
Programs initiated a Special Emphasis Assessment (SEA) and an SEI of 
all Category X and Category I through IV airports, evaluating perimeter 
security, including fencing, non-fenced man-made barriers, natural 
barriers, CCTV, electronic intrusion and motion detection devices, and 
other barriers. Assessments are complete for all Category X and I 
airports and the remaining airport assessments are expected to be 
completed later this month.
                               conclusion
    TSA's goal, at all times, is to maximize transportation security 
and stay ahead of evolving terrorist threats while protecting 
passengers' privacy and facilitating the efficient flow of travelers 
and legitimate commerce. We want to thank the subcommittee for the 
opportunity to discuss this important issue with you today and we are 
happy to answer any questions you may have.

    Mr. McCaul. Thank you, Mr. McLaughlin.
    The Chairman now recognizes Admiral Naccara for his 
testimony.

 STATEMENT OF ADMIRAL GEORGE NACCARA (RET.), FEDERAL SECURITY 
    DIRECTOR, TRANSPORTATION SECURITY ADMINISTRATION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Admiral Naccara. Good morning, Chairman McCaul and Ranking 
Member Keating. As my colleague, Chris McLaughlin, stated, I 
will now discuss TSA initiatives that are specific to security 
operations at Boston Logan Airport.
    TSA has long recognized the value of a layered threat-based 
approach to transportation security and the need to focus more 
of our resources on people we know less about who may pose a 
threat to aviation security. As part of its on-going commitment 
to implement risk-based security measures, TSA is conducting a 
Proof of Concept here in Boston to assess the value of 
expanding behavior detection in the airport screening process. 
Extensive research indicates this process is effective for 
detecting hostile intent and potential high-risk individuals.
    TSA's Behavior Detection Program, as you mentioned earlier, 
sir, the Screening of Passengers by Observation Technique, also 
known as SPOT, reveal that behavior detection was effective for 
helping identify persons attempting to defeat the screening 
process. Logan Airport was the first airport in the country to 
implement the agency's SPOT program, which is now employed at 
over 160 airports Nation-wide.
    As part of this Proof of Concept, TSA is using specially 
trained and certified Behavior Detection Officers, called BDOs, 
who are focusing their efforts on passenger interactions and 
behavior analysis. This is also being done in conjunction with 
boarding pass and identification review at the entrance through 
the checkpoints. The advanced training the officers receive 
includes both classroom and on-the-job training, and they are 
designed to enhance their communication skills to engage in 
conversations with passengers to determine whether they may 
pose a threat to transportation security. Although the vast 
majority of passengers will experience a casual conversation 
with our BDOs, a small number of passengers may be selected for 
an extended but still limited conversation and some possibly 
for additional screening.
    The goal of this Proof of Concept is to understand how 
behavior detection can be used to improve the effectiveness and 
efficiency of transportation security and also the passenger 
experience. We will evaluate how this Proof of Concept impacts 
security screening operations and passenger throughput, among 
other things, and these results will help us determine how the 
agency proceeds with the program.
    Now, I would like to describe how we are cooperating with 
our other essential partners at the local level to closely 
coordinate our security efforts. As you mentioned before, 
collaboration is essential to strengthening transportation 
security. Since its creation, TSA has engaged MassPort, the 
State police, and the airline carriers here to enhance security 
throughout Logan Airport, best exemplified by our daily morning 
briefing.
    As an explanation, at this briefing, we discuss incidents 
of the previous day, new security measures, as well as longer-
term plans for the coming days and weeks. It is an opportunity 
for everyone in the security environment to share their views 
and concerns and to reach a common understanding of our roles 
and responsibilities in respect to security.
    Many positive tangible results arose from this cooperative 
atmosphere, including a partnership with MassPort, the State 
police, and TSA to develop and execute plays that deploy 
varying security measures on a random basis throughout the 
terminals and secure areas of the airport allowing us to 
address vulnerabilities heretofore unaddressed.
    In the case of a security incident, TSA, MassPort, State 
police and the affected carriers immediately convene a 
conference call to determine the facts, to assess the risks and 
to collaboratively decide on a course of action to resolve the 
matter with as little disruption to traffic as possible. TSA 
and MassPort have also worked together to improve the closed 
circuit TV coverage of the airport's critical areas, providing 
TSA officials and airport officials with real-time access to 
all available cameras in the airport.
    This cooperation also extends across the Federal level as 
illustrated by the creation of the Nation's first airport-based 
counterterrorism office, as you've mentioned before. In that 
office, several DHS components, including TSA, the Customs and 
Border Protection, Immigration and Customs Enforcement, will 
all work with FBI's newly-opened Joint Terrorism Task Force 
office at Logan Airport. We will certainly improve 
communications, and this will also enhance intelligence 
sharing.
    Thank you for your time, and I look forward to answering 
any questions that you may have, sir.
    Mr. McCaul. Thank you, Admiral.
    The Chairman now recognizes Mr. Freni for his testimony.

      STATEMENT OF EDWARD C. FRENI, DIRECTOR OF AVIATION, 
                  MASSACHUSETTS PORT AUTHORITY

    Mr. Freni. Chairman McCaul, Ranking Member Keating, welcome 
to Boston Logan International Airport. I want to thank you for 
giving us the opportunity to describe some of the measures that 
we've taken at Logan Airport to emerge from the tragedy of 9/11 
into an airport recognized by both the Federal Government and 
our peers in the airport industry as a National leader in 
aviation security.
    For the record, my name is Edward C. Freni, and I'm 
Director of Aviation for the Massachusetts Port Authority which 
owns and operates Logan Airport as well as Worcester Regional 
Airport and Hanscom Field in Bedford.
    Last Sunday, America marked the 10th anniversary of the 
worst terrorist attack on this country in our history. More 
than 3,000 of our fellow Americans, as well as many citizens 
from other nations, were brutally killed in New York City, 
Washington, DC, and in a remote field in rural Pennsylvania. 
One hundred and forty seven of those fatalities were from Logan 
Airport, as two flights departing Boston for Los Angeles on the 
morning of September 11, 2001, American Airlines Flight 11 and 
United Airlines Flight 175, were commandeered by terrorists and 
used to attack New York's World Trade Center towers. Logan is a 
place where the scars left by the 9/11 attacks ``still run 
deep,'' as security expert Stephen Flynn said, accurately, as I 
can attest.
    September 11 had a profound impact on MassPort. Since that 
fateful day, MassPort has implemented an aggressive program of 
smart and focused security initiatives to strengthen defenses 
against potential threats. In the days and months following the 
attacks of 9/11, MassPort has worked tirelessly to implement 
strategies, policies, and programs suggested by security 
experts in the industry. MassPort continues to explore new 
technologies and ideas in order to maintain our status as a 
security innovator.
    Logan responded to that challenge and is now recognized as 
a National leader in aviation security. Logan is frequently 
chosen by the TSA and the Department of Homeland Security to 
pilot new techniques and technologies before they're installed 
and implemented Nation-wide. Behavioral pattern recognition 
surveillance techniques were pioneered by our State police here 
at Logan. The TSA took note of this new technique, which is an 
adopted version of methods used by the Israelis to spot 
terrorists using information derived from observed behavior 
rather than racial or ethnic categories and transformed it into 
a National program that TSA calls SPOT.
    Today, the TSA is again recognizing Logan's appreciation of 
this behavior approach by using us as their initial test site 
for risk-based screening using specially trained behavior 
assessors who ask passengers a short list of questions to help 
them determine if passengers might be pursuing a hostile 
agenda.
    Logan was the first airport in the country to meet the 2002 
Congressional mandate for 100 percent baggage screening when we 
completed on time an automated in-line system of screening all 
checked baggage. MassPort is also a leader in evaluating new 
transportation security technologies on its own. To help weigh 
the effectiveness of new technologies, MassPort's Office of 
Corporate Security created the Transportation Security Center 
of Excellence that invites inventors, vendors of emerging 
technologies to test their products at MassPort's airport and 
Seaport facilities.
    Logan also tries to make security everyone's business, from 
the CEO to the front-line ticket agents and baggage handlers. 
We've even badged and deputized the clammers who fish in the 
mudflats off Logan's runway ends, recruiting them to be an 
additional set of eyes and ears, reporting suspicious activity 
out there in our vulnerable airport perimeter.
    But the most significant improvement we've made toward 
keeping our airports and the flying public safer and more 
secure is the communication, coordination, and close working 
partnerships that now exist between agencies who have met every 
day since 9/11 to review the latest information and 
intelligence together and to plan an appropriate response for 
that day. MassPort's daily 8:30 morning security meeting 
bringing together all agencies with security responsibilities 
is well-known throughout the industry.
    For the sake of simplicity, Logan Airport's response after 
9/11 can be grouped under three broad categories. First were 
steps to physically harden Logan Airport and our other airport 
and seaport facilities against the possibility of their being a 
target of direct terrorist attack such as a suicide bombing. 
Under this category, I must include the consolidation of 11 
points of access to Logan airfield pre-9/11 into just 2 heavily 
fortified, military-style security gates post-9/11 capable of 
withstanding an attempted breach from even a heavy vehicle.
    Second are the technological innovations we've made to the 
airport's security. Here I would like to include our baggage 
screening system, the biometric controlled access systems and 
surveillance cameras that we've installed, as well as the 
technologies we field-tested in real-time real-life settings 
including those screening technologies we pilot-tested for the 
TSA.
    Third are the steps we've taken to marshal and better 
organize the human assets that protect this airport. That 
includes everything from the Massachusetts State Troopers from 
Troop F who patrol Logan's terminals to the Sky Caps who work 
the terminal curbsides. There is an old saying that goes, ``You 
can't manage what you can't measure.''
    Also unique to Logan is the development and use of over 200 
line items of security metrics that help MassPort manage its 
multi-million dollar security program. Our metrics enable us to 
achieve a high level of visibility on the performance of all 
our security program components and track their performance 
over time by comparing performance year over year. This has 
lead to many improvements such as the camera surveillance 
program current metric that no camera is out of service more 
than 24 hours on average.
    Hardening Potential Targets: Let me begin with some of the 
steps we took physically to harden Logan Airport as a future 
terrorist attack. I've already mentioned the restricted access 
to the Logan airfield that now exists with a single heavily 
fortified gate at both the northern and southern ends of the 
airfield.
    In addition, Logan erected pillars, concrete barriers in 
front of every terminal to prevent a terrorist from driving a 
bomb into the airport. We also replaced its 8-foot-high chain-
link fence around the perimeter to a 10-foot-high concrete 
wall.
    After 9/11, MassPort's security organization was thoroughly 
reviewed and analysis was completed of all of the procedures 
currently in place along with the placement and security of all 
fences, doors, windows, gates, underground utility tunnels, air 
intakes, and hundreds of smaller details bearing on the 
security of those critical assets.
    While Logan's Nationally-recognized bag screening system 
garnered most of the attention and accolades, there were other 
equally important initiatives undertaken to improve the overall 
security of MassPort's facilities. Shatter-proof laminate was 
installed in every airport terminal window to reduce injuries 
from flying glass should an explosion occur. Hundreds of bomb-
resistant trash receptacles were installed in all of our 
terminals and our parking garages. Barriers were erected to 
prevent vehicles from approaching sensitive buildings. Idling 
limos and taxis were relocated so that they could be screened 
away from the terminal areas before proceeding to pick up our 
passengers.
    Tow trucks were deployed in forward positions alerting 
motorists that unattended or illegally parked vehicles at 
terminal curbsides would be removed. This was especially true 
when the security threat level went up triggering MassPort's 
zero tolerance policy that compels the immediate impoundment of 
improperly parked vehicles anywhere on our property. A vehicle 
inspection system was instituted to reopen parking lots near 
terminals that were closed by order of the FAA after the 
terrorist attacks.
    Authorized by a special act of the Massachusetts State 
Legislature, a 500-foot security zone was established around 
Logan's waterside perimeter. The perimeter is marked off with 
buoys and enforced by stepped-up patrols, which also gave 
MassPort an opportunity to strengthen our relationship with the 
U.S. Coast Guard, our local harbormasters, and the City of 
Boston's maritime security efforts. Random roadblocks were 
conducted by State police troops at the entrance points of our 
airport.
    Technological Innovations: Logan Airport is also in the 
forefront of technological innovations used to improve 
security. Logan was the only Cat X airport to complete the 
project of December 31, 2002, Federal deadline, 4 years later 
remained among the few large airports to have achieved a fully 
in-line explosive detection system. This was among the 
achievements that helped Logan earn Air Safety Week Airport 
Security Report's Exceptional Performance of Airport Security 
in 2004.
    Workers travelled to Logan from more than 40 States after 
9/11 often sleeping in trailers they hauled themselves to 
install nearly 3 miles of bag belts, powered by more than 300 
motors, construct 85,000 square feet of new bag rooms, renovate 
55,000 square feet of existing bag rooms and construct eight 
new power substations.
    Logan is also making the needed structural changes. We have 
also installed about 200 security cameras throughout every 
airport concourse and airfield access points that can be 
monitored simultaneously at one central security office. A 
high-resolution surveillance camera currently being tested in 
Terminal A can record activity in an area the size of a stadium 
all the way to a Coke spilled on the floor.
    Along the airport perimeter, we have an extensive defense 
in depth which combines camera surveillance technology with 
police and fireboat patrols, police, fire, and operations 
vehicle patrols, and special fencing. We're also pursuing an 
automated intrusion detection system for this area. In 2007, we 
installed new access control systems to ensure that only 
authorized personnel are able to enter our secure areas.
    Our Human Assets: Technology is an important tool, but more 
important are the people who use it. While new technologies and 
capital construction projects grab the headlines, good security 
starts with people, communication, and organization. Logan 
believes that security is everyone's business, from the 
MassPort's CEO to the hundreds of vendors who work in the 
terminals.
    Through our Logan Watch Program, the airport instills a 
culture of security awareness among Logan's front-line staff, 
the eyes and ears of this airport who deal face-to-face with 
Logan's customers every day, by giving them counterterrorism 
training to help them spot and report activity that may be out 
of the ordinary or suspicious.
    A list of employees to help guard against threats is 
important. But equally important is to ensure that prospective 
employees are not threats to themselves. This is why we 
instituted an intensive system of background checks and badging 
for everyone that works in this airport, whether in a secure 
area or the public space.
    But perhaps the most important improvement made since 
September 11 has been the improved communication and 
cooperation that now exists among State, local, and Federal 
agencies that have responsibilities to keep Logan safe and 
secure.
    Admiral Naccara, Major Concannon, and I were not merely 
picked at random to be on this panel. We are part of a much 
larger team which first met on the afternoon of September 11 
and has continued to meet and is meeting every single morning 
since then at 8:30 to assess current security information and 
threat intelligence. Seven days a week, Logan's security team 
assembles, MassPort Operations security teams, MassPort Fire 
Rescue and the Massachusetts State Police, the FAA, the TSA, 
the FBI, the Federal Air Marshals Service, the U.S. Customs and 
Border Protection, the airlines, our major tenants, and 
construction contractors are among those who attend this 
meeting.
    At the meeting, we review the events of the past 24 hours, 
set the priorities and actions for the coming day. This is 
tremendously effective because all of the key decision-makers 
are present in one room at the same time every day. All 
agencies can now simultaneously review intelligence from the 
preceding 24 hours and adjust our priorities and response for 
the day ahead.
    In conclusion: From the challenges of 9/11, Boston Logan 
International Airport has emerged as a Nationally-recognized 
leader in airport security. The airport's layered approach to 
security creates a gauntlet of information-sharing, interagency 
cooperation, cutting-edge technology and top-to-bottom human 
interaction that helps identify and thwart potential threats to 
the safety and security of Logan's workers and passengers, 
whether from terrorism or other sources.
    Logan was the first major airport in the Nation to have 100 
percent in-line checked baggage screening, a 10-foot-high 
perimeter concrete wall around its landside boundary, a 
behavioral detection program that has been implemented and 
replicated by the TSA Nation-wide, and 100 percent biometric 
access control to restricted areas of the airport. The list of 
Logan's new security initiatives over the last 10 years is 
long, yet however many initiatives MassPort may have launched 
over the past decade since 9/11, security involves much more 
than formulating countermeasures to identify threats and 
vulnerabilities.
    At its core, good security is an extension of leadership. 
The commitment to use scarce resources to meet potential 
threats when other competing demands crowd for attention, the 
skill to educate the public about its responsibilities for 
improved security and the trade-offs it must make in lost time 
and convenience if the system is to work, the consistency to 
maintain organizational vigilance despite the inevitable and 
the almost endless lulls and false alarms, this requires 
strong, consistent leadership for a security system to work. 
These have been the hallmarks of MassPort's efforts as it has 
become a leader in transportation security.
    Last Sunday the Nation paused to honor the memories of 
those lives that were tragically lost on September 11, 2001 and 
paid tribute to the courage and dedication to the duty of the 
heroes and first responders of that day, many of whom have lost 
their lives. Memorials now exist at Ground Zero in New York 
City, at the Pentagon in Washington, DC, and in a remote field 
in Shanksville, Pennsylvania, and here at Boston Logan 
International Airport where the attacks of 9/11 were both a 
National tragedy and a personal one for all of us.
    Yet I believe that the most fitting memorial we could make 
to those who were lost that day is to continue doing everything 
humanly possible to ensure that the tragedy which took their 
lives never happens again. With this committee's help, I'm 
confident that we will.
    Thank you.
    [The statement of Mr. Freni follows:]
                   Prepared Statement of Edward Freni
                           September 16, 2011
    Chairman McCaul, Ranking Member Keating, and Members of the 
committee. Welcome to Boston Logan International Airport.
    I want to thank you for giving us this opportunity to describe some 
of the measures we've undertaken at Logan Airport to emerge from the 
tragedy of 9/11 into an airport recognized by both the Federal 
Government and our peers in the airport industry as a National leader 
in aviation security.
    For the record, my name is Edward C. Freni, Director of Aviation 
for the Massachusetts Port Authority which owns and operates Logan 
Airport as well as Worcester Regional Airport and L.G. Hanscom Field in 
Bedford.
    Last Sunday, America marked the 10th anniversary of the worst 
terrorist attack on this country in our history. More than 3,000 of our 
fellow Americans, as well as many citizens from other nations, were 
brutally killed in New York City, Washington, DC and in a remote field 
in rural Pennsylvania.
    One hundred forty seven of those fatalities were from Logan Airport 
as two flights departing Boston for Los Angeles on the morning of 
September 11, 2001--Americans Airlines Flight 11 and United Airlines 
Flight 175--were commandeered by terrorists and used to attack New 
York's World Trade Center towers.
    Logan is a place where the scars left by the 9/11 attacks ``still 
run deep,'' as the security expert Stephen Flynn said, accurately, as I 
can attest.
    I was the senior aviation official in charge at Logan that morning 
as our airport director at the time, Tom Kinton, was in Canada along 
with many other airport directors from around the world attending the 
annual conference of Airports Council International. I had just gotten 
off the phone with Tom telling him the weather was beautiful and 
everything was going smoothly when we first learned a plane had hit the 
World Trade Center.
    At first we thought it was just a single engine private plane whose 
pilot had either lost control or become disoriented and veered 
tragically off course. But then we learned it was a commercial 
jetliner, and also that it had originated from Logan Airport.
    Then the second plane hit. In those first few hours after two 
flights from Logan Airport were hijacked, we couldn't be sure whether 
Logan itself might also be a target for attack.
    The rest of that day, and those that followed, were a blur. Though 
we could not know the precise details at the time, all of us who were 
there that day at Logan Airport knew that from that moment on, our 
world would never be the same.
    The tragic fact that Logan will forever be linked to 9/11 means 
there is a ``never again sense of mission,'' as Flynn called it, among 
those of us at Massport and throughout the law enforcement community in 
Boston to raise the bar on the way we manage the risk of a possible 
future attack at Logan Airport.
    September 11 had a profound impact on Massport. Since that fateful 
day, Massport has implemented an aggressive program of smart and 
focused security initiatives to strengthen defenses against potential 
threats.
    In the days and months following the attacks of 9/11, Massport 
brought in National and international security experts, including a 
team from Israel, to work with the authority in developing a program 
second to none.
    Since then, Massport has worked tirelessly to implement strategies, 
policies, and programs suggested by security experts in our industry. 
And Massport continues to explore new technologies and ideas in order 
to maintain our status as a security innovator.
    Because of what happened at Logan that day, Massport has always 
felt a special obligation and urgency to be on the forefront of 
whatever new techniques or technologies are out there that promise to 
make aviation more secure.
    We have been, because we knew that Logan Airport would always be in 
the National spotlight with a public anxious to believe in the air 
travel system again that would use Logan as a yardstick to measure how 
far we'd come to improve the security of that aviation system.
    Logan responded to that challenge and is now recognized as a 
National leader in aviation security. Logan is frequently chosen by the 
TSA and the Department of Homeland Security to pilot new techniques and 
technologies before they are installed or implemented Nation-wide.
    Behavior pattern recognition surveillance techniques were pioneered 
by our State Police here at Logan. The TSA took note of this new 
technique--which is an adopted version of methods used by the Israelis 
to spot terrorists using information derived from observed behavior 
rather than racial or ethnic categories--and transformed it into a 
National program the TSA calls ``SPOT.''
    Today, the TSA is again recognizing Logan's appreciation of this 
behavior approach by using us as their initial test site for risk-based 
screening using specially-trained behavior assessors who ask passengers 
a short list of questions to help them determine if passengers might be 
pursuing a hostile agenda.
    Logan was the first airport in the country to meet the 2002 
Congressional mandate for 100% baggage screening when we completed on 
time an automated, in-line system for screening all checked baggage.
    Massport is also a leader in evaluating new transportation security 
technologies on its own. To help weigh the effectiveness of new 
technologies, Massport's Office of Corporate Security created the 
Transportation Security Center of Excellence that invites inventors and 
vendors of emerging technologies to test their products at Massport's 
airport and seaport facilities.
    Logan also tries to make security everyone's business, from the CEO 
to the front-line ticket agents and baggage handlers.
    We've even badged and deputized the clammers who fish in the 
mudflats off Logan's runway ends, recruiting them to be an additional 
set of eyes and ears, reporting suspicious activity out there on that 
vulnerable airport perimeter.
    But the most significant improvement we've made toward keeping our 
airports and the flying public safer and more secure is the 
communication, coordination, and close working partnerships that now 
exist between agencies who've met every day since 9/11 to review the 
latest information and intelligence together and to plan an appropriate 
response for that day.
    Massport's daily 8:30 morning security meeting, bringing together 
all agencies with security responsibilities, is well-known throughout 
the industry.
    For the sake of simplicity, Logan Airport's response after 9/11 can 
be grouped under three broad categories:
    First, were steps to physically harden Logan Airport, and our other 
airport and seaport facilities, against the possibility of their being 
a target of a direct terrorist attack, such as a suicide bomber. Under 
this category I might include the consolidation of 11 points of access 
to the Logan airfield pre-9/11 into just two heavily fortified, 
military-style security gates post-9/11 capable of withstanding an 
attempted breech from even a heavy vehicle.
    Second, are the technological innovations we've made to the 
airport's security. Here, I would include our baggage screening system, 
the biometric-controlled access systems and surveillance cameras we've 
installed, as well as the technologies we've field tested in real-time, 
real-life settings, including those screening technologies we've pilot-
tested for the TSA.
    Third are the steps we have taken to marshal and better organize 
the human assets that protect this airport, and that includes 
everything from the Massachusetts State Troopers from Troop F who 
patrol Logan's terminals to the Sky Caps who work the terminal curbs 
outside.
    There is an old saying that goes: ``You can't manage what you can't 
measure.'' Also unique to Logan is the development and use of over 200 
line items of security metrics that help Massport manage its multi-
million dollar security program.
    Our metrics enable us to achieve a high level of visibility on the 
performance of all our security program components and track their 
performance over time by comparing performance year over year. This has 
led to many improvements, such as the camera surveillance programs 
current metric that no camera is out of service for more than 24 hours, 
on average.
                      hardening potential targets
    Let me begin with some of the steps we took to physically harden 
Logan Airport against a future terrorist attack. A facility like Logan 
Airport designed for easy public access and serving as many as 28 
million passengers a year--77,000 passengers a day--is often called a 
``soft target'' because the open and publicly-accessible nature of its 
mission presents unique security challenges for those who operate and 
protect them.
    I have already mentioned the restricted access to the Logan 
Airfield that now exists, with a single, heavily-fortified gate at both 
the northern and southern ends of the airfield.
    In addition, Logan erected pillars and concrete barriers in front 
of every terminal to prevent a terrorist from driving a bomb into the 
airport. We also replaced its 8-foot-high chain link fence around the 
perimeter with a 10-foot-high concrete wall.
    After 9/11 Massport's security organization was thoroughly 
reviewed. An analysis was completed of all the procedures currently in 
place, along with the placement and security of all fences, doors, 
windows, gates, underground utilities tunnels, air intakes, and the 
hundreds of smaller details bearing on the security of these critical 
assets.
    Deterrence and prevention, of course, are always the primary 
objective. But prudence dictates that it is also necessary to adopt 
measures to decrease the deadly toll of a terrorist attack should one 
be attempted.
    While Logan's Nationally-recognized bag screening system garnered 
most of the attention and accolades, there were other, equally 
important initiatives undertaken to improve the overall security of 
Massport's facilities:
  <bullet> Shatter-proof laminate was installed to every airport 
        terminal windows to reduce injuries from flying glass should an 
        explosion occur.
  <bullet> Hundreds of bomb-resistant trash receptacles were installed 
        in all terminals and parking garages.
  <bullet> Barriers were erected to prevent vehicles from approaching 
        sensitive buildings.
  <bullet> Idling limos and taxis were relocated so they could be 
        screened away from terminals before proceeding to pick up 
        passengers.
  <bullet> Tow trucks were deployed in forward positions, alerting 
        motorists that unattended or illegally parked vehicles at the 
        terminal curbside would be removed. This was especially true 
        when the security threat level went up, triggering Massport's 
        zero tolerance policy that compels the immediate impoundment of 
        improperly parked vehicles anywhere on the property.
  <bullet> A vehicle inspection system was instituted to reopen parking 
        lots near terminals that were closed by order of the FAA after 
        the terrorist attacks--another security initiative that 
        provides significant customer service benefits for Logan's 
        passengers.
  <bullet> Authorized by a special act of the Massachusetts State 
        Legislature, a 500-foot security zone was established around 
        Logan's waterside perimeter. The perimeter is marked off with 
        buoys and enforced by stepped-up patrols, which also gave 
        Massport an opportunity to strengthen our relationship with the 
        U.S. Coast Guard, local harbormasters, and the City of Boston's 
        maritime security efforts.
  <bullet> Random road-blocks were conducted by State police troops at 
        the entrance to our parking garages.
                       technological innovations
    Logan Airport is also in the forefront of technological innovations 
used to improve security.
    Compelling proof of this commitment is Logan's baggage screening 
system.
    Logan was the only Category X airport to complete the project by 
the December 31, 2002 Federal deadline and 4 years later remained among 
the few large U.S. airports to have achieved a fully in-line Explosive 
Detection System.
    That was among the achievements that helped Logan earn Air Safety 
Week Airport Security Report's ``Exceptional Performance in Airport 
Security Award'' in 2004.
    Logan's bag screening system was a massive undertaking successfully 
completed by nearly 800 bricklayers, electricians, carpenters, 
ironworkers, HVAC workers, bag belt workers, and others--all of whom 
had to be monitored daily to ensure security--and who worked around the 
clock to compress 2 or 3 years of construction work into less than 1.
    Workers traveled to Logan from more than 40 States after 9/11, 
often sleeping in trailers they hauled themselves, to install nearly 3 
miles of bag belts powered by more than 300 motors, construct 85,000 
square feet of new bag rooms, renovate 55,000 square feet of existing 
bag rooms, and construct eight new power substations.
    Logan's was the first bag screening system given the go-ahead to 
begin construction on the Federally-mandated system by the new TSA, and 
Massport's Board committed nearly $150 million to expedite construction 
before the reimbursement formula that eventually repaid those funds was 
even in place.
    At the same time the bag screening project was moving forward, 
Massport was designing and constructing modern security checkpoints for 
the TSA's passenger screening.
    The system incorporated updated equipment, better layout for 
increased flow, and the development of exit lane security doors and 
video monitoring to prevent the need to empty a terminal or concourse 
should there be concern about a possible security breach. Since then 
Logan has made significant investments to improve efficiency by 
retrofitting our terminals to consolidate checkpoints in both Terminal 
B and Terminal C.
    These are just a few examples where Logan is improving security 
with technology. Logan is also making needed structural changes.
    We have also installed about 200 security cameras throughout every 
airport concourse and airfield access points that can be monitored 
simultaneously from a central security office. A high-resolution 
surveillance camera currently being tested in Terminal A can record 
activity in an area the size of a stadium, all the way down to a Coke 
spilled on the floor.
    Along the airport perimeter we have an extensive defense in depth 
which combines camera surveillance technology with police and fire boat 
patrols; police, fire, and operations vehicle patrols, and special 
fencing. We are also pursuing automated intrusion detection for this 
area.
    In 2007, we installed a new Access Control System to ensure that 
only authorized personnel are able to enter secure areas.
    Logan also tries to be on the cutting edge of the development of 
new techniques and technologies to make our Nation more secure than it 
has ever been before. We have become a laboratory for the field testing 
of promising new security innovations. To separate what works from 
what's a waste of time Massport has assembled a special Security 
Advisory Committee.
    This group of experienced professionals, with contacts in New 
England's academic and business communities, works with our Director of 
Corporate Security to evaluate new security technologies and how they 
might be used.
    The council helps us to quickly decide which ideas are worth 
pursuing as we continue to launch pilot projects that push the envelope 
on ways to improve security--without sacrificing operational 
effectiveness.
    These tests, for example, proved the value of handheld wireless 
computers that were issued to our State Police, allowing troopers on 
foot patrol to conduct criminal history and license plate checks via a 
secure wireless network.
                              human assets
    Technology is an important tool. But more important are the people 
who use it. While new technologies and capital construction projects 
grab the headlines, good security starts with people, communication, 
and organization.
    Logan believes that security is everyone's business, from 
Massport's CEO to the hundreds of vendors who work in the terminals. To 
remind everyone of this fact and to keep workers vigilant and on their 
toes, Logan has instituted a public recognition program called 
``SAFE''--Security Awareness is for Everyone--to single out those 
workers who do their part to protect this airport.
    Through our ``Logan Watch'' program the airport instills a culture 
of security awareness among Logan's front-line staff--the eyes and ears 
of this airport who deal face-to-face with Logan's customers every 
day--by giving them counter-terrorism training to help them spot and 
report activity that may be out-of-the-ordinary or suspicious.
    To help employees do that more effectively, while also providing 
customer service benefits, Massport established an ``English for 
Speakers of Other Languages'' program at Logan Airport that has been in 
effect for the past 2 years. This joint effort of Massport, UGL Unicco, 
and SEIU Local 615 provides 32 weeks of intensive English instruction 
for airport workers whose primary language is not English.
    With the emphasis Logan Airport places on front-line airport 
employees to provide clear and accurate information to law enforcement 
officials about potential threats to airport security and public 
safety, Massport knew it was important to improve the English 
proficiency skills of everyone who works at this airport.
    While improving airport security may have been the primary impetus 
for a program that gives all airport workers the confidence to 
communicate effectively with the public, providing language skills also 
improves customer service for our passengers and opens new career doors 
for our workers.
    Enlisting employees to help guard against threats is important. But 
equally important is to ensure that prospective employees are not 
threats themselves. This is why we have instituted an intensive system 
of background checks and badging for everyone who works at this 
airport, whether in secure areas or public spaces.
    A program was implemented to check the fingerprints and criminal 
history records of all airport employees, contractors, and construction 
workers. These innovations don't stop at Logan Airport as Hanscom Field 
in Bedford became the first airport of its size to have a security 
badge program using FBI fingerprint background checks to better 
identify people who have access to the airfield.
    These were just some of the measures Logan adopted after turning to 
Nationally and internationally respected experts on counter-terrorism 
in order to better understand and prepare for the new world we woke up 
to on the morning of September 11, 2001.
    Airports in America have a lot to learn from the experience of 
airports in those parts of the world that have had to deal with the 
threat of terrorism much longer than we have. So immediately after 9/11 
Logan hired the former head of security for Israel's El Al Airlines and 
Ben Gurion Airport, Rafi Ron, whose experience as a security specialist 
in one of the world's most dangerous regions was invaluable to Logan in 
preparing to counteract today's the new threats.
    By bringing Rafi Ron to Logan Airport we have been able to learn 
about the strict security that is standard operating procedure in 
Europe and Israel, while learning how these security measures can be 
adopted and incorporated into the operations of large, complex American 
airports like Logan with their unique demands and constraints.
    But perhaps the most important improvement made since September 11 
has been the improved communication, cooperation, and cooperation that 
now exists among State, local, and Federal agencies that have 
responsibilities for keeping Logan safe and secure.
    Admiral Naccara, Major Concannon, and I were not merely picked at 
random to be on this panel. We are part of a much larger working team 
which first met on the afternoon of September 11 and has continued 
meeting every morning since then at 8:30 to assess current security 
information and threat intelligence.
    Seven days a week, Logan's security team assembles: Massport 
operations and security teams, Massport Fire Rescue, the Massachusetts 
State Police, the FAA, the TSA, the FBI, the Federal Air Marshal 
Service, U.S. Customs and Border Protection, the airlines, our major 
tenants and construction contractors, among others.
    At the meeting we review the events of the past 24 hours and set 
the priorities and actions for the coming day. This is tremendously 
effective because all the key decision makers are present in one room, 
at the same time, every day. All agencies can now simultaneously review 
intelligence from the preceding 24 hours and adjust our priorities and 
response for the day ahead.
    Another example of the close inter-agency cooperation you find at 
Logan Airport is the Joint Terrorism Task Force composed of Federal, 
State, and local law enforcement and security professionals.
    In another security first, Massport and the FBI announced just last 
month the opening of a Joint Terrorism Task Force headquarters here at 
Logan International Airport--the first ever, airport-based FBI-Joint 
Terrorism Task Force Unit in the country.
    Thanks to the new headquarters of the joint terrorism task force 
here at Logan, these agencies will be able to remain in constant 
physical contact even after the 8:30 morning meeting breaks up--further 
contributing to the teamwork that exists.
    The offices, located on-site at Logan, were formally opened in July 
by FBI Director Robert S. Mueller III. The facility is a tangible 
example of the collaborative approach to security at this airport.
    The agencies with a daily presence at the facility are the FBI, 
TSA, Federal Air Marshall Service, U.S. Department of State Diplomatic 
Security Service, U.S. Customs and Border Protection, Massachusetts 
State Police, Boston Police Department, Homeland Security 
Investigations, and Massport.
    The opening of the JTTF Annex has greatly enhanced the task force's 
ability to share vital information and dramatically strengthen 
investigative support in a timely manner with those that may be 
affected by criminal acts.
                               conclusion
    From the challenges of 9/11 Boston Logan International Airport has 
emerged as a Nationally-recognized leader in airport security. The 
airport's layered approach to security creates a gauntlet of 
information-sharing, inter-agency cooperation, cutting-edge technology 
and top-to-bottom human interaction that helps identify and thwart 
potential threats to the safety and security of Logan's workers and 
passengers, whether from terrorism or other sources.
    Logan was the first major airport in the Nation to have 100% in-
line checked baggage screening, a 10-foot-high perimeter concrete wall 
around its landside boundary, a behavior detection program that has 
been replicated by the TSA Nation-wide, and 100% biometric access 
control to restricted areas of the airport.
    The list of Logan's new security initiatives over the past 10 years 
is long. Yet, however many initiatives Massport may have launched over 
the past decade since 9/11, security involves much more than 
formulating countermeasures to identified threats and vulnerabilities.
    At its core, good security is an extension of leadership. The 
commitment to use scarce resources to meet potential threats when other 
competing demands crowd for attention; the skill to educate the public 
about its responsibilities for improved security and the tradeoffs it 
must make in lost time and convenience if the system is to work; the 
constancy to maintain organizational vigilance despite the inevitable, 
and almost endless, lulls and false alarms--this requires strong, 
consistent leadership for a security system to work. These have been 
the hallmarks of Massport's efforts as it has become a leader in 
transportation security.
    Last Sunday the Nation paused to honor the memories of those whose 
lives were tragically lost on September 11, 2001 and pay tribute to the 
courage and dedication to duty of the heroes and first responders of 
that day, many of whom also lost their lives.
    Memorials now exist at Ground Zero in New York City, at the 
Pentagon in Washington, DC, in a remote field in Shanksville, 
Pennsylvania and here at Boston Logan International Airport, where the 
attacks of 9/11 were both a National tragedy and a personal one as 
well.
    Yet I believe that the most fitting memorial we could make to those 
who were lost that day is to continue doing everything humanly possible 
to ensure that the tragedy which took their lives never happens again. 
With this committee's help, I am confident we will.
    Thank you.

    Mr. McCaul. Thank you, Mr. Freni. Let me just personally 
thank you for your service and the Massachusetts Port Authority 
for its service. I know you were here that fateful day. I can't 
imagine what was going through your mind, at that time. But 
you've been a real leader for the Nation, in terms of airport 
security, and you've really done a great job making this 
airport safer. So thank you so much.
    Mr. Freni. Thank you, Mr. Chairman.
    Mr. McCaul. Next the Chairman now recognizes Major 
Concannon.

STATEMENT OF MICHAEL P. CONCANNON, MAJOR, STATE POLICE TROOP F, 
               BOSTON LOGAN INTERNATIONAL AIRPORT

    Mr. Concannon. Good morning, Chairman McCaul and Ranking 
Member Keating. It's my honor and pleasure to speak with this 
committee regarding the topic of assessing airport security and 
preventing a future terrorist attack. Thank you for this 
opportunity.
    For the record, my name is Major Michael D. Concannon. I'm 
the Commanding Officer of Troop F of the Massachusetts State 
Police, charged with providing law enforcement and security 
services here at Boston Logan International Airport as well as 
at other MassPort properties.
    I'd first like to acknowledge the tremendous and 
professional working relationships that exists among the 
numerous entities that make up the security team at Logan 
Airport. It is my sincere belief that it is because of these 
incredibly strong partnerships that Logan Airport has been able 
to get it right when it comes to securing the large Category X 
international airport in the post-9/11 era.
    Those of us who work hard each day to protect the people 
and infrastructure at Logan understand that nothing less than a 
true team effort will work. Clearly, there is a sensitivity at 
Logan Airport due to the history here that drives this high 
level of commitment. The exceptional professional and personal 
relationships that have been forged through the years here at 
Boston have laid the foundation for any number of historic and 
groundbreaking security enhancements.
    Among these achievements are an historic playbook 
collaborative effort, an effective and coordinated State police 
and TSA canine effort, a comprehensive advanced imaging testing 
resolution protocol, an effective and efficient coordinated 
effort to maximize the resources of the TSA's bomb appraisal 
officers, as well as our own bomb squad, a practical and 
legally sound checkpoint response protocol, a unified breached 
resolution protocol, an on-airport robust ICE/DEA task force, 
and a recently established first in the Nation on-airport FBI 
Joint Terrorism Task Force Annex. These are just some of the 
advancements that we've been able to implement here at Logan 
Airport in recent years, and they are an example of, as well 
as, the fruits of the solid partnerships in place here at 
Logan.
    We continue to cultivate a very positive culture within the 
Logan security team where all of the airport's stakeholders, 
each and every employee is expected to understand, appreciate, 
and perform a security rule. These efforts were recently 
recognized at the highest levels of the TSA when the newly-
appointed administrator, Mr. John Pistole, on his very first 
airport visit upon being appointed came to Logan Airport. He 
commented that the security operation here was ``one of the 
best, most secure'' of all of the airports in the Nation. We 
strive each day to ensure that our efforts are worthy of such 
high praise.
    In my role as Troop F Commander, I'm involved in all 
security matters that concern Logan Airport as well as other 
MassPort properties, and I work every single day with all of 
our partners, most notably, the TSA. In addition to being the 
Troop F Commander, I also serve as MassPort's Director of 
Aviation Security, and I'm afforded a seat at the table for all 
security-related discussions.
    The specific assets that the Massachusetts State Police 
offer in protecting these properties are numerous. Troop F 
consists of several components, including uniform troopers who 
perform patrol duties, troopers in tactical units such as the 
bomb squad and canine units, as well as troopers in 
investigative units and support units. We also have an officer 
assigned full-time to the newly created JTTF Annex. Each 
officer views his or her role as a member of the larger airport 
community and has embraced the cooperative and collaborative 
approach that is so vital in protecting the airport, its 
stakeholders, and the traveling public.
    Troop F is different from other geographic troops that make 
up the Massachusetts State Police, most of which include among 
their duties patrols of long stretches of State highways. While 
Troop F does not have the traditional patrol function, we do 
have the unique responsibility for maintaining a layered 
security approach at Logan Airport including the waterside and 
landside perimeters, the terminal and curb area, both with the 
public side of the passenger terminals and the sterile side as 
well as the aircraft operating area, the ramp area. The focus 
at Troop F primarily here at Logan Airport is a blend of a 
proactive security strategy coupled with a strong customer 
service approach. Our goal is the professional delivery of the 
highest levels of police and security services to MassPort 
through a combination of vigilance and courtesy.
    Not only is the specific mission of Troop F different than 
other State police troops, but the approach to fulfilling the 
mission is also different. Rather than a traditional response 
model whereby police officers respond to calls for service 
after the fact, the model at Troop F is a proactive one. Every 
officer here, regardless of unit assignment, has been trained 
in behavior pattern recognition and is expected to utilize 
these skills on a daily basis throughout the airport. Troopers 
are expected to be alert for anything or anybody who appears 
out the ordinary, whose behavior does not seem to fit in with 
normal actions and routines of travelers. When such behavior or 
action arises or raises questions, troopers engage that person 
in conversation to further assess the situation. This proactive 
preventative approach to security is certainly different than 
many of the assignments on the State police, and this mind-set 
is reiterated and reinforced repeatedly here at Troop F.
    Boston Logan was the first airport in the Nation to deploy 
this BPR program which was modeled after the Israeli airport 
security program and has been adapted for U.S. airport 
environment by Mr. Rafi Ron, an international aviation security 
expert hired by MassPort immediately after 9/11. The BPR 
program contributes to the creation of an efficient 
multilayered security system for the airport. As has been 
mentioned, this concept was the forerunner of the SPOT EDO 
program that you've heard about.
    It should be pointed out that, whenever a new security 
strategy is introduced, its vital to ensure that the Security 
team is on the same page. Beyond that, it's also critically 
important that the public supports the efforts as well.
    The BPR program and its observation and conversation 
techniques have been well-received at Logan Airport and have 
been embraced by the entire security team. These techniques are 
welcome by Logan Airport passengers who are reassured by the 
proactive and professional approach designed to identify 
potential criminals or terrorists without inconveniencing the 
tens of thousands of passengers who use Logan Airport each day. 
Not only are the officers of Troop F trained to be on the 
lookout for items, persons, or behaviors of concern, they are 
also trained to receive any and all referrals by airport 
employees and members of the public of issues that concern 
them.
    We coordinate our efforts closely with a variety of law 
enforcement and Homeland Security partners, including MassPort, 
the TSA, the Federal Air Marshals Service, Customs and Border 
Protection, the FBI, Immigrations and Customs Enforcement and 
the DEA, just to name a few. The officers assigned here in each 
of our security partners understand and accept that we are all 
part of a much larger layered security framework at the airport 
that includes not only law enforcement, public safety, and 
security personnel but also every single one of our 14,000 
badged airport employees. The mind-set of every single person 
who works at the airport must be and is, ``If you see something 
that concerns you, you should say something to the 
authorities,'' or in short, ``See something, say something.''
    Further, it's often mentioned here that, if you work at 
Logan Airport and you can go a day without thinking of 9/11, 
you should not work at Logan Airport. This cannot be 
overstated. We rely heavily on the eyes and ears of the airport 
community, including the airline employees, the airport vendor 
employees, the ground transportation team and members of the 
traveling public to assist us in securing Logan Airport. We 
constantly remind each of these partners of the important role 
that they play, and we have programs in place to train these 
people, remind these people, and recognize these people for 
their contributions.
    I'm confident in saying to this committee that the entire 
Boston Logan International Airport security team has worked 
very hard each day to accomplish these goals, and we have 
remained positive and flexible as we've had to adapt to 
evolving threats and challenging times. Further, we will 
continue to work hard and to be constantly mindful of the 
critical need for cooperation, communication, and 
collaboration. We have wrestled with many of the issues 
affecting airports across the country. But because of the 
constant effort to work together, to communicate openly, and to 
be mindful that we share a common goal, we have been able to 
work these issues to successful resolution.
    The advice that we would offer to other airports is this: 
Communication serves to establish relationships. Relationships 
forge true partnerships. Strong partnerships ensure successful 
collaborative outcomes.
    Again, I thank the Chairman and Ranking Member, Mr. 
Keating, and the committee for the opportunity to appear before 
you today and to share my thoughts. I look forward to any 
questions that you may have, thank you.
    [The statement of Mr. Concannon follows:]
            Prepared Statement of Major Michael P. Concannon
                           September 16, 2011
    Good morning Chairman McCaul, Ranking Member Keating, and Members 
of the committee.
    My name is Major Michael P. Concannon. I am the Commanding Officer 
of Troop F of the Massachusetts State Police; charged with providing 
law enforcement and security services here at Boston/Logan 
International Airport as well as at other Massachusetts Port Authority 
(Massport) properties.
    It is my honor and pleasure to speak with this committee regarding 
the topic of assessing airport security and preventing a future 
terrorist attack. Thank you for this opportunity.
    I would first like to acknowledge the tremendous professional 
working relationships that exist among the numerous entities that make 
up the ``Security Team'' at Logan Airport. It is my sincere belief that 
it is because of these incredibly strong partnerships that Logan 
Airport has been able to ``get it right'' when it comes to securing a 
large Category X international airport in this post-9/11 era.
    Those of us who work hard each day to protect the people and the 
infrastructure at Logan understand that nothing less than a true team 
effort will work. Clearly, there is a sensitivity at Logan Airport, due 
to the history at our airport, that drives this high level of 
commitment.
    The exceptional professional and personal relationships that have 
been forged through the years here at BOS have laid the foundation for 
any number of historic and ground-breaking security enhancements.
    Among these achievements are: An historic Playbook collaborative 
effort, an effective and coordinated MSP and TSA K-9 effort, a 
comprehensive Advanced Imaging Testing (AIT) resolution protocol, an 
effective and efficient coordinated effort to maximize the resources of 
the TSA Bomb Appraisal Officers (BAO's), a practical and legally sound 
checkpoint response protocol, a unified breach resolution protocol, an 
on-airport robust ICE/DEA task force, and a recently established, 
first-in-the-Nation on-airport FBI Joint Terrorism Task Force Annex.
    These are just some of the advancements that we have been able to 
implement here at Logan Airport in recent years and they are an example 
of (as well as the fruits of) the solid partnerships in place at Logan 
Airport.
    We continue to cultivate a very positive culture within the Logan 
security team where all of the airport stakeholders, each and every 
employee, is expected to understand, appreciate, and perform a security 
role.
    These efforts were recently recognized at the highest levels of the 
Transportation Security Administration (TSA) when the newly-appointed 
administrator, Mr. John Pistole, on his very first airport visit upon 
being appointed administrator, came to Logan Airport. He commented that 
the security operation here was ``one of the best/most secure'' of all 
the airports in the Nation. We strive to ensure that our efforts are 
worthy of such high praise.
    In my role as Troop F Commander, I am involved in all security 
matters that concern Logan Airport, as well as all other Massport 
properties and I work every single day with all of our partners, most 
notably the TSA. In addition to being the Troop F Commander, I also 
serve as Massport's Director of Aviation Security and I am afforded a 
seat at the table for all security-related discussions.
    The specific assets that the Massachusetts State Police offer in 
protecting these properties are numerous. Troop F consists of several 
components, including uniformed Troopers who perform patrol duties, 
Troopers in tactical units such as the bomb squad and K-9 unit, as well 
as Troopers in investigative units and support units. Each officer 
views his/her role as a member of the larger airport community and has 
embraced the cooperative and collaborative approach that is so vital to 
protecting the airport, its stakeholders, and the travelling public.
    Troop F is different from other geographic Troops that make up the 
Massachusetts State Police, most of which include among their duties 
patrols of long stretches of State highways. While Troop F does not 
have the traditional ``patrol'' function, we do have the unique 
responsibility for maintaining a layered security approach at Logan 
Airport, including the waterside and landside perimeters, the terminal 
curb area, both the public side of the passenger terminals and the 
sterile side of the terminals (post screening), and on the ramp areas 
(the aircraft operating area--the AOA).
    The focus at Troop F, primarily at Logan Airport, is a blend of a 
proactive security strategy coupled with a strong customer service 
approach. Our goal is the professional delivery of the highest levels 
of police/security services to Massport, through a combination of 
vigilance and courtesy.
    Not only is the specific mission of Troop F different than the 
other State Police Troops, but the approach to fulfilling that mission 
is also different. Rather than the traditional ``response'' model, 
whereby police officers respond to calls for service (after the fact), 
the model at Troop F is ``proactive''.
    Every officer at Troop F, regardless of unit assignment, has been 
trained in Behavior Pattern Recognition (BPR) and is expected to 
utilize these skills on a daily basis, throughout the airport.
    Troopers are expected to be alert for anything or anybody who 
appears out of the ordinary, whose behavior does not seem to fit in 
with normal actions and routines of travelers. When a behavior or 
action raises questions, Troopers engage that person in conversation to 
further assess the situation. This proactive, preventative approach to 
security is certainly different than many of the assignments on the 
State Police and this mindset is reiterated and reinforced repeatedly.
    Boston/Logan was the first airport in the Nation to deploy this 
program, which was modeled after the Israeli airport security program 
and has been adapted for a U.S. airport environment by Rafi Ron, an 
international aviation security expert hired by Massport immediately 
after 9/11. The behavior pattern recognition program contributes to the 
creation of an efficient, multi-layered security system for the 
airport.
    Whenever a new security strategy is introduced, it is vital to 
ensure that the security team is on the same page. Beyond that, it is 
also critically important that the public supports the effort as well. 
The BPR program and its observation and conversation techniques have 
been well received at Logan Airport.
    These techniques are welcomed by Logan Airport passengers who are 
reassured by the proactive and professional approach designed to 
identify potential criminals or terrorists without inconveniencing the 
tens of thousands of passengers who use Logan each day. They are viewed 
as a significant improvement over the random searches that were such a 
frustrating intrusion and inconvenience for the vast majority of 
passengers in the past. Not only are the officers of Troop F trained to 
be on the lookout for items, persons, and behaviors of concern, they 
are also trained to receive any and all referrals by airport employees 
and members of the public of issues that concern them. We coordinate 
our efforts closely with a variety of law enforcement and homeland 
security partners, including Massport, the Transportation Safety 
Administration (TSA), the Federal Air Marshals Service (FAMS), Customs 
and Border Protection (CBP), the Federal Bureau of Investigation (FBI), 
Immigration and Customs Enforcement (ICE), and the Drug Enforcement 
Administration (DEA) to name a few.
    Troop F and the officers assigned here and each of our security 
partners understand and accept that we are all part of a much larger 
layered security framework at the airport that includes not only the 
law enforcement/public safety/security personnel, but every single one 
of our 14,000 Secure Identification Display Area (SIDA) badged airport 
employees. The mindset of every single person who works at the airport 
must be (and is) ``If you see something that concerns you, you should 
say something to the authorities. Or, in short, ``See Something, Say 
Something''. Further, it is often mentioned that, ``if you work at 
Logan Airport and you can go a day without thinking of 9/11, then you 
should not work at Logan Airport''.
    This cannot be overstated. We rely heavily on the eyes and ears of 
the airport community, including the airline employees, the airport 
vendor employees, the ground transportation team, and members of the 
travelling public to assist us in securing Logan Airport. We constantly 
remind each of these partners of the important role that they play and 
we have programs in place to train people, remind people, and to 
recognize people for their contributions.
    I'm confident in saying to this committee that the entire Boston/
Logan International Airport security team has worked very hard each day 
to accomplish these goals and we have remained positive and flexible as 
we've had to adapt to evolving threats and challenging times. Further, 
we will continue to work hard and to be constantly mindful of the 
critical need for cooperation, communication, and collaboration.
    We have wrestled with many of the same issues affecting airports 
across the country, but because of the constant effort to work 
together, to communicate openly, and to be mindful that we share a 
common goal, we have been able to work these issues to successful 
resolution. The advice we would offer to other airports is this: 
Communication serves to establish relationships, relationships forge 
true partnerships, and strong partnerships ensure successful, 
collaborative outcomes.
    Again, I thank the Chairman and the committee for the opportunity 
to appear before you today and to share my thoughts and I look forward 
to any questions that you may have.
    Thank you.

    Mr. McCaul. Thank you, Major, and I appreciate your 
testimony.
    Now, you can't come to this airport without remembering 
what happened 10 years ago. You know, it was a bright, sunny 
day, a crisp day, not unlike today, that turned into one of the 
darkest chapters in American history. To sit here and to think 
not too far from where we sit, Mohamed Atta and his band of 
hijackers slipped through detection, slipped through our 
security and got onto those airplanes and proceeded to kill 
3,000 people gives me a tremendous sense of sorrow but also of 
obligation to make this place more secure. I will say, I think 
you all have done a fantastic job in that effort.
    Since that day, we've become accustomed, as a people, to go 
through airports. We take our shoes off. We go through 
secondary screening. We go through pat-downs. It's just become 
a way of life.
    As a Member of Congress--and I'm sure Mr. Keating as well--
we often hear complaints about, you know, ``Why are you taking 
the elderly woman aside and patting her down?'' And ``Why are 
you taking the child and patting them down?'' ``Why are you 
treating all Americans as an equal threat?''
    Should we be more risk-based? Should we be looking more at 
the real threat rather than the grandmother? I think that's a 
common-sense approach, and I think that's an approach that this 
Behavior Detection Program, I think, seeks to do. Looking not 
at every individual as an equal threat, but let's look at the 
behavior of the individual. Is it suspicious? Let's analyze the 
behavior to spot those potential threats.
    I've had numerous people say, ``Why aren't we doing what 
they do in Israel? That works so well.'' I think that's what 
this program, as has been testified to, is really, it's part of 
that program. You all looked at what the Israelis have done, 
taken that and applied it here at Logan Airport. The first 
model, the first pilot program was done here. In my view, it's 
been successful, and now it's adopted in 160 airports across 
the country. It's resulted in 2,000 arrests in our airports. 
Again, I think it's just common sense.
    So I just would like, I think it would be interesting to 
hear a little bit more about how this program works and how we 
can get beyond the day where the grandmother is patted down, 
the World War II Veteran is patted down, and the child is 
patted down.
    Mr. Freni.
    Mr. Freni. As we stated, Mr. Chairman, shortly after 9/11, 
we had to strategize and make sure that we were doing the right 
things that made sense to make sure that this airport was 
secure.
    Obviously, we thought that it was important that we take a 
look at the people that travel through the airport day-in and 
day-out. So we had engaged with Rafi Ron, as the Major 
mentioned in his remarks, to come in and show us the Israeli 
model. We thought that that fit appropriately. We decided, at 
that time, that we would train the entire Troop F in those 
techniques.
    Along with that, we instituted a program called Logan Watch 
where the condensed version of that training is now introduced 
to all our employees that hold badges. They have to take that 
program before they are enabled to get a badge to work here at 
the airport. So they have the same knowledge that Mr. Ron had 
when he came to the State police group, so that they look to 
see if there is anything out of the ordinary on a daily basis. 
But we have drilled that into the fabric and imbedded it into 
the fabric of the way we do business here.
    It's great to see that the TSA has now taken that program 
and instituted it with the size of the workforce that George 
Naccara has here. So that gives us a whole different group of 
people that are in the front lines that can look and pay 
attention to the behavior of those who come through our 
terminals and get on our airplanes. So the SPOT Program is a 
derivative of what we did originally with Rafi Ron.
    We welcome the opportunity to test the risk-based 
assessment that we have actually started and I'm sure George 
will talk about. But we are now exempting the young children 
under 12, so hopefully, your young son will be exempt from some 
of the scrutiny that some of the young children have had to go 
through, and it pains us to see that. Also, with the elderly 
group, we hope that it will branch out to that.
    But the important thing is that we're watching and paying 
attention to the way people behave. We think that with the 
institution of the SPOT Program and other risk assessment 
programs that we're willing to test here any time at this 
airport is the best way to go.
    Mr. McCaul. Well, thank you. You did mention my son. This 
was yesterday, I'm at Dulles Airport. He broke his finger 
playing football, so he had a metal splint, and of course went 
through the magnetometer and went through secondary screening, 
and he was tested for explosives. I don't know, I don't think 
my son is a threat to the National security of the United 
States. But in any event, it's good to hear that this airport 
is using that common-sense approach where you don't have to pat 
down 5-year-old kids.
    I think that it will go a long way with the American 
people. They can accept having to go through a lot of this 
stuff. But when they see the grandmother or the child, I think 
they lose their patience with that. I think what you're doing 
will take this in the right direction.
    You know, in oversight, we're often very critical. This is 
one of those days where I have to commend and applaud you for 
your efforts. Admiral, I want to applaud you for taking this, 
this model approach that the Israelis developed, and applying 
it throughout the Nation through the TSA.
    Do you have any comments or would you like to explain how 
this works and what the training is?
    Admiral Naccara. Well, thank you, Mr. Chairman. I'll defer 
some of the explanation to my colleague, Chris McLaughlin, for 
the National approach to the risk-based security.
    But as far as Logan Airport goes, what Mr. Freni explained 
was accurate. That was, we saw great value in what the State 
police were doing and what MassPort was doing here, and as an 
agency, we were leaning forward and looking for opportunities 
to improve security and perhaps to work away from complete 
reliance on technology and look into the human interaction and 
how that could enhance our processes.
    Fortunately, we began with pilot programs here in 2005, 
expanded to other airports in the New England area. Then our 
headquarters understood and allowed us to begin a formal pilot 
program which has led to the Nation-wide SPOT Program that we 
have today with nearly 3,000 officers at around 160 airports.
    Now, in the evolution of the human interaction and behavior 
detection, it's an exciting time. As you suggested, we are 
treating everyone the same, and that is not the most effective 
use of resources. So we need a method to assess the risk 
associated with every passenger and then to manage that risk 
appropriately, and that's where we're headed.
    Frankly, the Proof of Concept we have in place here is 
exciting and very well-embraced by MassPort and the State 
police and the carriers, which is critical to our success 
certainly, but even to the passengers. We've had this in place 
now for nearly 6 weeks. We've spoken to thousands, tens of 
thousands of passengers, and generally, the reaction has been 
extremely positive. The questions they're being asked are very 
similar to those which are asked of international passengers. 
Anyone who has traveled around the world has also been exposed 
to those types of questions. We're looking for the reactions, 
the behaviors, and we're also looking for inconsistencies in 
their story. That is refining our process so that we will treat 
people differently.
    There are a number of elements to the overall program of 
risk-based security, and one of them addresses the issue of 
your child. Again, I'll allow Chris to talk about that. But 
that was a program that was piloted here and at five other 
airports around the country beginning about 6 weeks ago. There 
is some relaxation of the standards for children who appear to 
be 12 and under, and it's working very well.
    Our goal, of course, is to minimize the pat-downs that are 
conducted on a child 12 and under. As you suggested, they are 
considered a much lower risk. We are adapting our systems. The 
World War II veterans you've suggested also, we've modified the 
processes for them as well. That's certainly deserved, and it's 
appropriate respect for them.
    Mr. McCaul. That's right.
    Admiral Naccara. It's an exciting time for all of us, and 
you'll see many changes. They won't come too quickly, but on 
the other hand, the process has begun, and I'll defer to Chris 
on that.
    Mr. McCaul. Let me just say that 10 years after the tragic 
events, this is certainly, in my judgment, a good news story.
    Mr. McLaughlin, do you have any comments?
    Mr. McLaughlin. Thank you, sir.
    Coming up here from the District of Columbia, I mean, the 
first thing that I would like to do is truly recognize the 
local team here. They truly embody what we're looking for 
across the Nation in terms of a real partnership to securing 
our aviation process. So I'm honored to be here with them.
    From literally his first day or first few days on the job, 
our administrator, John Pistole, has been talking actively 
about moving away from a one-size-fits-all security model to a 
risk-based approach. To that end, TSA has been working 
diligently on a number of different initiatives within the 
portfolio of risk-based security to try to do three things; 
improve security, do it more efficiently, and frankly, do it in 
a way that also improves the overall customer experience. We 
believe, truly, that we can accomplish those three things by 
taking a smart approach.
    We learned from the support and the recommendations of the 
GAO with the variety of things that we roll out, we apply some 
of those pieces into the work we're doing, and we pilot them in 
places like Logan. At the end of the day, we are confident that 
things like the Assessor Proof of Concept, as we've shown 
recently with the pilots with children under 12 and have now 
rolled out nationally, there are ways that we can look at an 
individual based on what we know about them in advance of their 
arrival to the airport, what we learn about them while they're 
at the airport, and then we can apply appropriate screening 
measures to them based on what we found out through that 
process.
    So we agree wholeheartedly that there is a better, smarter, 
more effective, and more efficient way to doing this.
    Mr. McCaul. Well, I look forward to getting updates on the 
successes. I know you've had 2,000 arrests. Fortunately, none 
of those were terrorist-related, although some involved, I 
think, counterfeit documents which could have been related to 
terrorism. But certainly, that's 2,000 criminals off the 
street.
    So Major, as you had mentioned, I was a Federal prosecutor. 
I used to work with the JTTF, Joint Terrorism Task Force. It's 
a valuable model approach. You say that you are now very 
coordinated with their efforts here at the airport?
    Mr. Concannon. Yes, we are, sir.
    Mr. McCaul. Could you elaborate on that?
    Mr. Concannon. Yes, Mr. Chairman.
    We have a sergeant, one of our troopers, assigned full-time 
with the JTTF working closely with that team. The JTTF Annex 
here at the airport obviously has a close relationship with the 
Boston JTTF Annex downtown. They work closely on any issues 
that arise here at the airport. Our sergeant who is assigned 
there is able to bring back information to share with the 
troops. That can help with either an on-going investigation or 
certainly intelligence updates, things to be on the lookout 
for. We found it very productive. We think it's a great idea, 
and we'd like to see it expanded throughout the country.
    Mr. McCaul. That's very good.
    Mr. Lord, the 9/11 Commission's Tenth Anniversary Report 
Card had some criticism. We're still vulnerable to aviation 
security threats, in their opinion, and specifically talk about 
the need to improve screening at checkpoints using biometrics 
and standardized identification documents.
    What are your thoughts on that?
    Mr. Lord. Well, first of all, we've done a large body of 
work on, not only the screening process, but the technologies 
that's utilized to implement some of the processes. We found 
some problem areas in deploying effective technology, but also 
in using biometrics.
    We did a very detailed assessment--it's not in the aviation 
sector, mind you, it's in the maritime--on the so-called TWIC 
biometric card. It's a Transportation Worker ID card. At one 
time, that was envisioned as the model. It was going to be 
rolled out across all modes of transportation. But they had 
some difficulties designing the card, implementing it, doing 
effective background checks. It proved to be a little more 
difficult than I think people originally envisioned.
    Also, it's just being used a visual flash pass now. So 
we've had some covert investigators visit various ports, and 
they were able to obtain access to most of the facilities they 
entered. So our point was, well, until they're used with 
readers, it's really not going to be an effective deterrent. 
You need to, you know, make sure all industry stakeholders are 
on board before rolling out these types of programs.
    Mr. McCaul. Go ahead.
    Mr. Lord. Also, one additional point about the Israeli 
model. I probably get that question more than anything, 
regarding our work on behavior detection. I salute TSA's 
efforts to make the program more conversational. I think that 
has the potential to make it more effective.
    But I think that it's important to also note that in 
Israel, they have a very small-scale size operation. So you 
have to be careful about inferring everything is readily 
transferrable to the U.S. model. Also in Israel, you can 
profile people, you know, on the basis of race, sex, and 
national origin. Obviously, that's a major difference between 
their system and our system which makes it, you know, less 
comparable.
    Mr. McCaul. Of course, my opinion is the hijackers came 
from a certain part of the world, and our intelligence assets 
overseas are in those areas. I think that certainly, in my 
view, should be a factor.
    But having said that, I do know that when I asked the 
Secretary why we're not using this approach, the Israeli 
approach, she said that it would take too long to process with, 
you know, millions of passengers. The good news, from what I 
understand through this program, it has not slowed down the 
process in any way, shape, or form.
    Is that correct, Admiral?
    Admiral Naccara. Yes, sir.
    As a matter of fact, we are testing various options. We 
call it a Proof of Concept. That allows us to explore different 
manipulations in this system. We're looking at the outcome, and 
one of those considerations in the outcome would be the 
through-put. So we've tried two different models, and in each 
case, we have seen virtually no difference in the overall 
screening process out in front. These are exciting times. We'll 
continue to test other models as well.
    As Chris has pointed out, we have to be aware of different 
circumstances and different airports, certainly even in 
different checkpoints, and we have different levels of 
staffing. So those factors have to all be considered as we 
assess the data that comes in, and then we make some decisions 
as to where we go in the future. But this is very preliminary.
    Mr. McCaul. I just want to follow up on the 9/11 Commission 
again, Mr. Lord.
    When you say ``readers,'' you're talking about, these are 
identification documents that can be falsified or used by 
another person to gain access to the airport, and you're 
talking about biometric?
    Mr. Lord. Yes. These are biometric card readers.
    Mr. McCaul. So it's the individual. You know that's the 
individual with the card.
    Mr. Lord. Yes.
    Everybody gets a card thing. Then to make it effective, you 
have to swipe the card to get access. In the TWIC program 
anyway, they've given everybody a card, but the readers aren't 
installed yet, so.
    Mr. McCaul. Last question. I want to give my Ranking Member 
some time, and I appreciate your generosity.
    I just want to end with a general question, and that is, 
you know, I was Chief of Counterterrorism at Justice for a 
while. I remember in 1993, Ramzi Yousef, World Trade Center 
bomber, escaped and went to Islamabad. I know the FBI agent who 
arrested him. When they knocked his door down, it was sort of 
eerie. He had baby dolls in his apartment, and they were 
stuffed with chemical explosives. His intention of the plot was 
to carry those baby dolls on multiple airlines and blow up 
simultaneously these airplanes. I know that his uncle, Khalid 
Sheikh Mohammed, had talked about flying airplanes into 
buildings in the mid-1990s.
    The threat of chemical explosives is still an issue today. 
In fact, you know, just recently, the Christmas bomber, we know 
out of Yemen, the Clerk Yemen is still looking at ways to use 
chemical explosives on aviation to bring down airplanes. I 
think since that time, we've had another type of screening 
device.
    So where are we with detecting chemical explosives, and 
what is the threat today from that, I guess, part of the 
question for the TSA?
    Mr. McLaughlin. I'll take that question.
    I have to confess that that's a bit beyond my scope of 
expertise in terms of the overall chemical threat in terms of 
the composition. What I will tell you is that threat does still 
exist, as you've pointed out, and really what you're talking 
about is the complexity of our issues.
    So we're doing everything that we can to minimize intrusive 
techniques for the majority of customers, but we have to be 
cognizant of things like what you just described with baby 
dolls. So whether that's liquids, gels, or children's toys, we 
still have to make sure that every change that we make in a 
risk-based posture doesn't ignore the real threat that is very 
much there today. We're charged with defending against that.
    Mr. McCaul. All right.
    Mr. McLaughlin. So that the short answer is that we analyze 
each of our pieces as we roll in changes to our system to make 
sure that we're not missing something like a current and active 
threat.
    Mr. McCaul. Thank you.
    Admiral, do you have any comments on that?
    Admiral Naccara. We also have deployed certain pieces of 
technology at our checkpoints and in our baggage rooms to help 
us detect additional chemicals or explosives, what would be 
indicators of explosives. We're always improving that.
    With each year, I think we've rolled out some new 
technologies that give us more capabilities. So as Chris 
suggests, it's a continuing process, and it's a challenge to 
keep up with the bad guys, frankly. But we have been attempting 
that. You'll see new pieces of equipment, periodically, at the 
checkpoint and in the baggage rooms.
    Mr. McCaul. Thank you. I want to thank the Ranking Member 
for his patience. I hope I didn't ask every question that you 
were going to ask.
    Mr. Keating. No, thank you.
    Mr. McCaul. With that, I recognize my good friend and 
colleague, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    You know, Logan's perimeter security is unique, because 
there are so much water boundaries that are there, water-based 
boundaries. But there are airports in urban areas, airports in 
rural areas. So many airports have a different, you know, set 
of logistics attached to it.
    One of the things cited in the 9/11 Commission report 
review touches on an area of concern that I have on--getting 
back to the Charlotte Douglas example with Delvonte Tisdale--
you know, the issue they brought forward is the unity of 
command and who is in charge and making sure those lines are 
clear. The aviation director from Charlotte Douglas Airport 
where it was believed Mr. Tisdale breached perimeter security 
recently provided written testimony to Congress. He stated in 
that testimony, ``When there is a threat on board an aircraft, 
the FBI responds and investigates. When a pilot makes an error 
on the aircraft, the FAA responds and investigates. And when 
there is an airplane crash, the NTSB responds and 
investigates.''
    If it's believed there is a security breach at a major U.S. 
airport, why shouldn't TSA respond and investigate first? Why, 
in that instance, was it first handed over to local police 
authorities to look at this? Shouldn't there be that same chain 
of command immediately where there is one Federal agency that 
just initiates and takes charge of that rather than turning to 
a local police authority?
    Mr. McLaughlin. So I'll use Charlotte as the example, but 
I'll speak in more broad terms.
    As I believe I stated earlier, TSA's role in airport 
security is to regulate a process. Each individual airport is 
required to write and operate in accordance with a local 
airport security program that TSA approves. The actual day-to-
day oversight of the security operation in that airport does 
fall back to the airport authority.
    What TSA does, and in this example, we use a finding from a 
breach such as happened in Charlotte. As an example, as a 
result of that, we conducted a National special emphasis 
inspection of all airports, from Cat X all of the way through 
Cat 4s. As I said, we'll be done with that analysis at the end 
of this fiscal year so that we can ensure that, once we've 
identified a problem, it doesn't happen again.
    At the local level, we conduct annual and comprehensive 
inspections of the airports to ensure that they're in 
compliance with their plan. As we stated, we do perform joint 
vulnerability assessments at the required 34 airports a year, 
plus an additional between 10 and 15, depending on our 
resources. While that doesn't cover every airport, it certainly 
covers more than 75 percent of the traveling public that 
originate from those largest airports.
    Mr. Keating. I just think that, you know, there has been 
two repeated--well, there has been repeated breaches since then 
at that same airport and perimeter security.
    Someone was breaching security stealing, from my 
understanding, diesel fuel out of the place, and that was 
happening, and someone else just was able to hop a fence. This 
is a tremendous weakness. I'll direct this to Mr. Lord, and if 
any of the other panelists, although the other three are 
dealing with Logan here, it's a little different. But this is a 
tremendous, tremendous weakness we have.
    When we had testimony in Homeland Security as the major 
committee looking back at the Commission reports, we had former 
Secretary Tom Ridge, and we had the vice chair of that 
committee, Lee Hamilton, both say that there is a real problem 
with perimeter security. If we're trying to create uniform 
standards of security, if we leave that to each local police, 
when some of these are rural and don't have the resources, you 
know, with all of the great efforts that you've done here at 
Logan, if there is a breach in the network, people from here 
aren't safe.
    So my thinking, Mr. Lord, is just it's beyond me not to 
understand why there isn't some Federal uniform authority over 
those jurisdictions. Should we be doing that as Congress? I 
mean, something should be done so that TSA's hands aren't tied, 
if that's what happened here.
    Mr. Lord. Well, actually, I thought Mr. McLaughlin gave a 
very nice description of the overall who has oversight. 
Essentially, it's a shared responsibility. Under this current 
system, a lot of different stakeholders have a role in helping 
ensure security. I probably know that that doesn't satisfy your 
question.
    But at least, when we looked at this in our perimeter 
security report, we noticed, first of all, breaches occur on a 
regular basis. I think there was an average of over 2,000 
breaches across the National system on an annual basis. We 
thought it was important given that the TSA conduct a 
comprehensive risk assessment to obtain, you know, and to 
identify vulnerabilities across the Nation and to use that 
information to better decide what to focus on.
    I think the special emphasis reviews Mr. McLaughlin 
mentioned, that's a good step. That's going to allow them to 
see, is this a problem on a broader scale or is it unique to 
Charlotte? So I think they're doing--they're taking the right 
actions at the moment. I look forward to seeing what the 
special emphasis review concludes.
    But again, you just can't do it on an airport-by-airport 
basis. You have to do these assessments more broadly. Given the 
current jurisdiction, everybody seems to have a piece of it, I 
think that's a good way to proceed. You have to come up with a 
better visibility on what the problem is on a National scale 
before attacking the problem.
    Mr. Keating. You know, well, I think the problem is pretty 
obvious. I think if you are having an investigation on 
commercial aircraft that are flying all over the country, 
leaving it to a local police force isn't going to cut it. It 
just isn't going to cut it. It's an area that we should look 
at, in my opinion, more strongly.
    You know, the whole area of jurisdiction is a problem. As 
Congress, I must say, at a public hearing just like this, we 
have our own weaknesses. Because the jurisdiction of homeland 
security is a patchwork quilt. We're doing our best. I know the 
Chairman shares my concern as well. We've got to clean up our 
own jurisdictional problems, you know, for homeland.
    But when you're dealing with this and the investigative 
primary responsibility is in a local airport where, I believe, 
in that instance--and you're familiar, Mr. McLaughlin--there 
were suggestions that were a few years old that they just 
ignored. So you have a situation like this. The locals are in 
charge, and they're ignoring the Federal Government and their 
recommendations. So the oversight is important, but it's just 
not good enough, frankly.
    If anyone else wanted to comment on this, I'd welcome any 
comments.
    Mr. McLaughlin. If I could follow up on that, sir. I would 
say that, in the Charlotte case, specifically, we do, TSA does 
have a regulatory authority, and we are able to take certain 
and significant steps, when necessary. We do still have some 
open investigations with regard to this case.
    But I would point out two specific things, significant 
things that Charlotte has done in the interim to improve their 
perimeter securement. No. 1 is, they've increased their police 
force at the airport by some 21 officers; and No. 2, they've 
increased their testing, their own internal testing from twice 
a day to three times a day. So they are taking some significant 
steps. They've proposed, in addition to that, several changes 
to their ASP that we currently have for review within TSA and 
will be responding in the near future on that.
    Mr. Keating. What penalties can you invoke, if they 
ignore--and I'm not picking on Charlotte. I don't think they're 
alone. It would be just counterintuitive that this is the only 
airport that there are problems like this. But you know, this 
affects all of the folks here, and all of the things we've 
heard here are undercut when we don't have a uniform, seamless 
approach to this.
    Mr. McLaughlin. Civil penalties, we would use that 
mechanism to hold the airports accountable, if they wouldn't 
comply with our requirements.
    Mr. Keating. Is that fines?
    Mr. McLaughlin. Yes, sir.
    Mr. Keating. Anything else? Do you have the ability to shut 
down that airport until they get it right?
    Mr. McLaughlin. I would have to get back with you on that 
answer.
    Mr. Keating. It's an area that I'm going to be looking at 
myself, because I think we need stronger penalties. They're 
just ignoring those things, and we cannot have that kind of 
network across the country.
    If I could move a little further, just jumping around. On 
the SPOT Program and the behavior observation program, I really 
commend the people here in looking at it and analyzing it.
    Could you go into depths about how that analysis is going 
to occur, and if Mr. Lord or Mr. McLaughlin also have ideas 
about what should be considered, what kind of metrics are used 
to evaluate how effective it is and also to make sure, as Mr. 
Lord said, you know, we can't racially profile people in the 
United States and we shouldn't.
    But when you are doing the analysis, what kind of metrics 
and safeguards go into making sure that that's not occurring?
    Mr. McLaughlin. I'll take that because it's a National 
program being conducted here locally.
    As I said earlier, the GAO made some strong recommendations 
with regard to the SPOT Program overall. Many of those have 
been incorporated into the assessor or the behavior detection 
pilot that we're running here in Boston. So we're looking at a 
broad spectrum of effectiveness, first and foremost security 
effectiveness. We want to ensure that this is actual working, 
that it's helping us to mitigate the threat further than what 
we're doing today.
    But second to that, we're looking at the overall impact 
from an efficiency perspective. So are we ensuring that we're 
doing this within the constraints of budget and other concerns 
that we have today. Then finally, we're truly looking at the 
customer impact. If you have an opportunity to observe that 
pilot, I would suggest that, in many ways, this enhances the 
customer experience because it puts TSA in a place where we're 
having a very human, personal, casual conversation with each 
customer that approaches us.
    So we started the process with baseline data. We had data 
collectors in Logan evaluating a number of different metrics. 
Now in the pilot phase, we're evaluating how we're performing 
against those baseline metrics. Again, they touched the 
spectrum from effectiveness to efficiency to customer 
experience. I would be more than happy to set up a briefing 
where we can go into more detail about what they are 
specifically.
    Mr. Keating. Thank you.
    We're here at the site of the international terminal. I'm 
curious, in terms of resources, money, and how difficult this 
is, how do you deal with the foreign language issues when 
you're having a chat-down? Do you have those resources?
    Mr. Freni. I could speak for Logan Airport. We have many 
employees, multilingual, that we hire in our public relations 
and TSR program, public service. Many times, we're called upon 
to assist with the law enforcement and the TSA to interpret.
    Mr. Keating. One of the things--and you know when we have 
these hearings, we have to be careful we don't breach any 
security or give anyone information that we don't want them to 
have--but one of the things that I'm very curious about, to the 
extent that you can talk about it, with the new optics program 
that you are having with MIT and Lincoln Laboratories and 
Pacific Northwest, with that camera system, it truly is 
amazing. This is the pilot project that is here, you know, to 
be tried out here before the rest of the country.
    I have an understanding that sometimes, when you look at 
behavior, sometimes people's actions in a crowd and other 
things can trigger a computer program where they can zero in on 
points. That, to me, offers a lot of promise in trying to see, 
you know, trying to pick out behavior just from an optical 
standpoint, you know, mechanically.
    Is there something that you can, without breaching too much 
security, is there something that you can inform us about that?
    Admiral Naccara. I can address that. Actually, we 
considered that, but it's not being deployed at this time. 
There are a number of problems with that, sir.
    No. 1, the angle would be from the ceiling, so you may not 
have a very good perspective of a person's face. Also, very 
difficult to read that, and the software has not been proven 
that good to effectively identify those behaviors in that 
method.
    So at this point, the camera is being used periodically 
because it requires so much data space just to view the 
complete terminal, in this case. It's got tremendous acuity and 
can view numbers on my badge, for example, at the far end of 
the terminal. It can be programmed to identify or to alarm for 
certain colors or certain actions. But we do not have the 
software, at this point, to identify behaviors.
    To their credit, MIT is looking at the next iteration of 
that camera system as well in which they will use many more 
lenses knitted together to give a 360-degree perspective in a 
larger area.
    Mr. Keating. Another one of the--oh, I'm sorry. Go ahead, 
Mr. Lord.
    Mr. Lord. I just wanted to note that one of the 
recommendations in our SPOT report was to better utilize 
available closed-circuit TVs to refine the program and to help, 
you know, judge whether you are honing in on the right types of 
behaviors. So it's good to hear that the TSA is already moving 
on that.
    Mr. Keating. Did you do any work, Mr. Lord, to see how 
realistic that might be someday?
    Mr. Lord. I know other airports are using more, you know, 
for lack of better word, hi-def systems. I guess, we were 
somewhat surprised that every airport has a slightly different 
approach on the system. We encourage TSA to ensure, you know, 
that you have a more effective system across all airports. We 
don't think there should just be this lack of uniformity, which 
they readily agree with.
    Mr. Keating. I want to give everyone the opportunity to 
jump in with another issue. But one thing I'll pick up that, 
again, it's a good opportunity, frankly, to recognize all of 
the work that the family members of the victims have put into 
making sure that other people aren't harmed and the work they 
did with the 9/11 Commission. Certainly, we all feel an 
obligation as we walk in here every day and remember 9/11 to 
those family members that we follow through on the hard work of 
the Commission.
    But one of the areas--if I can get some input, it's a great 
group to ask this question to, I think--one of the weaknesses 
and the deficiencies that are still there that are identified 
include the nature of identifications and how they vary from 
State to State and how they're different.
    One of the recommendations that they had is that the 
Federal Government should set standards for the issuance of 
birth certificates, you know, birth certificates and all kinds 
of other sources of identification to make sure that's, well, 
now you are a major hub, and you are getting people from all 
States and all countries.
    So how can the Federal Government be helpful in setting 
some kind of uniformity of those identifications?
    Mr. McLaughlin. One thing that we can do and that we're in 
the process of doing at TSA is developing and deploying 
software that can read multiple forms of identifications and 
will apply that against the boarding pass. So that's a new tool 
that we'll be deploying in the near future that will help us 
ensure that a proper ID is matched up with a proper boarding 
pass before we allow access through the checkpoint. I'll defer 
to others here.
    Mr. Freni. The comment that I'd have from the airline side 
of the business is that that really needs to be done when the 
record is developed. Hopefully, there will be some kind of 
software development where you can pick up on the 
identification of that person when they make their reservation 
so it doesn't have to come to the airport to do that.
    So hopefully, you know, we can tie that in when someone 
either goes on-line and makes a reservation and ties it into 
what we call a P&R system where you'd recognize the 
identification without any problem and then it avoids the 
waiting until they get here with their boarding pass.
    Mr. Keating. I'm just probing on areas where we can make 
changes that have to be made. One of them I think is shameful 
that hasn't been made by us in Congress and elsewhere is that 
you meet 8:30 every morning and share information. But when a 
crisis occurs, that information sharing has to be immediate and 
it has to be seamless.
    Could you tell us, from your vantage point, the importance 
of having that public safety radio band available, the 10 
megahertz that's necessary, so that Nation-wide through all 
different public safety agencies, you can communicate 
immediately when something occurs? The fact that that hasn't 
been done, again, is something I'm just lost at.
    I mean, you know, I know there is controversy about, you 
know, that band. But I honestly feel that's something that 
should have been done immediately after 9/11. But from your, 
you know, with boots on the ground, how important it is to have 
that band, can anyone?
    Mr. Concannon. I can tell you, sir, that we actually had 
this conversation yesterday at State police headquarters. There 
is a strong interest, for obvious reasons. Colonel McGovern, 
superintendent of the State police, understands the issue. 
She's been speaking with State officials about the need to have 
a dedicated band and to have a dedicated interoperability, not 
just in moments of crisis, but on a daily basis. So it's 
definitely an interest, significant concern to the State 
police.
    Mr. Keating. I know, you know, that some of the reviews of 
9/11 taught us that so many lives would have been saved had 
that been in place. Here we are 10 years later, and it's still 
not in place. So we've got our work cut out for us as well.
    People are going to wonder about this--and I'll leave this 
as a final question that could help us going forward--you know, 
you've done so much here and you've had innovative programs. 
They're costly.
    Could you comment on some of the means that you use to fund 
some of the things you've done and some of the needs you have 
going forward? I'll throw that open to anyone that wants to.
    Mr. Freni. Over the years since 9/11, all of the programs 
that I outlined in my comments have cost a significant amount 
of money. We meet with our stakeholders, our airlines, and in 
some cases, we have to recover those costs through our rates 
and charges. We do that, and that's the cost of doing business 
here at Logan Airport.
    We've also been very fortunate with our Federal partners to 
be reimbursed for a good portion of some of the initiatives 
that we've taken on. One example of that is the inline baggage 
screening system that we were able to fund and move forward on 
without Federal funding. We were able to capture a good 
percentage of that money after we completed it. So we've taken 
the risk to fund these projects on our own and have tried to 
find ways through our partners and our users to be able to pay 
for those initiatives.
    Admiral Naccara. Speaking from the Federal perspective to 
what Mr. Freni just described, they have been opportunistic at 
MassPort by being so focused for 10 years, and I'm appreciative 
of sharing in that embodiment of spirit here.
    When they see an opportunity for improvement, they're 
always leaning forward. When they see that potential, they're 
exceptionally well-prepared. They will come forward with a very 
well-justified product, and it's a very compelling argument. 
When others are still debating whether the concept is fine or 
should we put money towards that, MassPort will step forward 
with a quality product that makes it very easy for the Federal 
Government to say that this is justified. This is the place we 
should provide some funding. Then everyone benefits in the end.
    Mr. Keating. With the nature of airports, small rural 
airports, they have unique challenges. I think it's an area 
where we should continue. Because as I said, one weak link 
endangers everyone's safety.
    So I thank you. I'll yield back my time with that, Mr. 
Chairman.
    Mr. McCaul. Thank you, Bill, for that questioning.
    I want to thank the witnesses for being here today. This 
has been a very productive hearing. I also want to thank all of 
the personnel at Logan Airport that made this hearing possible 
and the Massachusetts Port Authority and the Massachusetts 
State Police who are here today for allowing us to host this 
and for welcoming a Texan to Massachusetts. It's a real honor 
to be here, and again, thank you for your service. It's been a 
great hearing.
    So I thank the witnesses for their valuable testimony and 
the Members for their questions.
    The Members of the committee may have some additional 
questions for the witnesses, and we will ask you to respond to 
these in writing. The hearing record will be held open for 10 
days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:17 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
